<html>
<title> - ELDER JUSTICE AND PROTECTION: STOPPING THE FINANCIAL ABUSE</title>
<body><pre>[Senate Hearing 108-382]
[From the U.S. Government Printing Office]



                                                        S. Hrg. 108-382
 
       ELDER JUSTICE AND PROTECTION: STOPPING THE FINANCIAL ABUSE
=======================================================================




                                HEARING

                               BEFORE THE

                         SUBCOMMITTEE ON AGING

                                 OF THE

                    COMMITTEE ON HEALTH, EDUCATION,
                          LABOR, AND PENSIONS
                          UNITED STATES SENATE

                      ONE HUNDRED EIGHTH CONGRESS

                             FIRST SESSION

                                   ON

EXAMINING FINANCIAL ABUSE AND EXPLOITATION OF THE ELDERLY, FOCUSING ON 
  ISSUES THAT ELDERLY CONSUMERS FACE IN TODAY'S INVESTMENT MARKETPLACE

                               __________

                            OCTOBER 30, 2003

                               __________

 Printed for the use of the Committee on Health, Education, Labor, and 
                                Pensions






                   U.S. GOVERNMENT PRINTING OFFICE
90-305                       WASHINGTON : 2004
_______________________________________________________________________
For sale by the Superintendent of Documents, U.S. Government Printing 
Office Internet: bookstore.gpo.gov Phone: toll free (866) 512-1800, 
DC area (202) 512-1800 Fax: (202) 512-2250 Mail: stop SSOP, Washington, 
DC 20402-0001












          COMMITTEE ON HEALTH, EDUCATION, LABOR, AND PENSIONS

                  JUDD GREGG, New Hampshire, Chairman

BILL FRIST, Tennessee                EDWARD M. KENNEDY, Massachusetts
MICHAEL B. ENZI, Wyoming             CHRISTOPHER J. DODD, Connecticut
LAMAR ALEXANDER, Tennessee           TOM HARKIN, Iowa
CHRISTOPHER S. BOND, Missouri        BARBARA A. MIKULSKI, Maryland
MIKE DeWINE, Ohio                    JAMES M. JEFFORDS (I), Vermont
PAT ROBERTS, Kansas                  JEFF BINGAMAN, New Mexico
JEFF SESSIONS, Alabama               PATTY MURRAY, Washington
JOHN ENSIGN, Nevada                  JACK REED, Rhode Island
LINDSEY O. GRAHAM, South Carolina    JOHN EDWARDS, North Carolina
JOHN W. WARNER, Virginia             HILLARY RODHAM CLINTON, New York

                  Sharon R. Soderstrom, Staff Director
      J. Michael Myers, Minority Staff Director and Chief Counsel

                                 ______

                         Subcommittee on Aging

                CHRISTOPHER S. BOND, Missouri, Chairman

LAMAR ALEXANDER, Tennessee           BARBARA A. MIKULSKI, Maryland
MIKE DeWINE, Ohio                    EDWARD M. KENNEDY, Massachusetts
PAT ROBERTS, Kansas                  PATTY MURRAY, Washington
JOHN ENSIGN, Nevada                  JOHN EDWARDS, North Carolina
JOHN W. WARNER, Virginia             HILLARY RODHAM CLINTON, New York

                    Kara R. Vlasaty, Staff Director
                Rhonda Richards, Minority Staff Director

                                  (ii)

  














                            C O N T E N T S

                               __________

                               STATEMENTS

                       THURSDAY, OCTOBER 30, 2003

                                                                   Page
Bond, Hon. Christopher S., a U.S. Senator from the State of 
  Missouri.......................................................     1
Mikulski, Hon. Barbara A., a U.S. Senator from the State of 
  Maryland.......................................................     2
Chambers, Richmond D., Chevy Chase, MD...........................    11
Curran, Jr., J. Joseph, Attorney General, State of Maryland, 
  Baltimore, MD..................................................    13
Scott, Carol, Missouri State Long-Term Care Ombudsman, and 
  President, National Association of Long-Term Care Ombudsmen, 
  Jefferson City, MO.............................................    15
Blancato, Robert, President, National Committee For the 
  Prevention of Elder Abuse, Washington, DC......................    16
Hammond, W. Lee, board member, American Association of Retired 
  Persons, Salisbury, MD.........................................    19

                          ADDITIONAL MATERIAL

Statements, articles, publications, letters, etc.:
    J. Joseph Curran, Jr.........................................    31
    Carol Scott..................................................    32
    Robert B. Blancato...........................................    35
    W. Lee Hammond...............................................    40
    Richmond D. Chambers.........................................    43
    Franklyn S. Greene...........................................    43
    Pamela B. Teaster and Lisa Nerenberg.........................    45
    .............................................................

                                 (iii)











       ELDER JUSTICE AND PROTECTION: STOPPING THE FINANCIAL ABUSE

                              ----------                              


                       THURSDAY, OCTOBER 30, 2003

                               U.S. Senate,
                             Subcommittee on Aging,
of the Committee on Health, Education, Labor, and Pensions,
                                                    Washington, DC.
    The subcommittee met, pursuant to notice, at 10:13 a.m., in 
room SD-430, Dirksen Senate Office Building, Senator Bond 
(chairman of the subcommittee) presiding.
    Present: Senators Bond and Mikulski.
    Also Present: Senator Breaux.

                   Opening Statement of Senator Bond

    Senator Bond. The Subcommittee on Aging of the Senate 
Health, Education, Labor and Pensions Committee will come to 
order.
    I would like to thank all of you for joining us, the 
witnesses in particular. We thank all of you for attending this 
hearing today on ``Elder Justice and Protection: Stopping the 
Financial Abuse,'' which is a very important one, and we look 
forward to having your testimony and your guidance.
    Although we are all vulnerable to financial abuse and 
exploitation, the elderly are at a particularly high risk of 
victimization because people over the age of 50 control 70 
percent of the Nation's wealth, and they are extremely 
attractive targets. In addition, the elderly can be highly 
susceptible to promising officers and companionship, which 
could unfortunately result in financial ruin or worse.
    Seniors tend to be more trusting and less cynical than 
younger people in dealing with fraudulent salesmen and other 
scam artists. In too many instances, seniors are no match for 
scam artists and predatory family, friends, or caregivers 
intent on robbing them of their life savings or worse, and that 
is particularly disturbing and troubling.
    There have been very few attempts to quantify the crime 
among the senior population. The most authoritative estimates 
that we have about financial abuse come from the National Elder 
Abuse Incidence Study. This study found that out of 
approximately 450,000 substantiated reports of all types of 
elder abuse, approximately 30 percent of these involve some 
form of financial abuse.
    Elder financial abuse ranks right behind neglect and 
psychological abuse as the most prevalent form of elder abuse. 
The study also found that the officially reported cases are 
only the tip of the iceberg--for every case that is reported, 
several cases go unreported.
    I think we have to protect seniors from scam artists and 
predators determined to take the money, the home, and the 
assets they have spent a lifetime saving and accumulating.
    With the aging of baby boomers and the high concentration 
of wealth among older people, financial crimes against the 
elderly regrettably are certain to increase. Given this 
information, Federal resources can and should be targeted 
toward providing more training and assistance in the 
identification, investigation and prevention of financial 
crimes against seniors.
    That is why I am pleased to be a cosponsor of Senator 
Breaux' Elder Justice Abuse Act. He is a true leader in the 
Senate on this issue, and we are delighted the he is joining us 
today.
    This bill is the first comprehensive Federal effort to 
address the issue of elder abuse in all of its forms. It 
combines law enforcement and public health to study, detect, 
treat, prosecute and prevent elder abuse, neglect, and 
exploitation. This elder protection measure is based on 
successful approaches that have been applied to combat child 
abuse and violence against women.
    Without question, tackling elder abuse is a complex 
question requiring a very comprehensive solution. The Elder 
Justice Act will play a significant role in building the vital 
Federal infrastructure and resources necessary to protect the 
financial safety of our Nation's seniors.
    We look forward to the testimony of the witnesses on this 
important issue.
    I will turn now to my colleagues for their comments, and 
then we will go back to our colleagues for introduction of 
witnesses.
    It is a real pleasure for me to introduce again my running 
buddy on so many of the committees on which we work together, 
the distinguished Senator from Maryland, Senator Mikulski.

                 Opening Statement of Senator Mikulski

    Senator Mikulski. Thank you very much, Mr. Chairman, for 
holding this hearing today on the financial exploitation of 
older Americans.
    I want to thank you for your leadership and your vigor on 
combatting consumer fraud but also now focusing on the largest 
group in our population that is subjected to the schemes, the 
scum, the thugs, and the bums, and that is our senior 
population.
    So we want to thank you for holding this hearing. We want 
to thank those who will be testifying here today, because we 
want to hear first-hand how we can fight financial scams 
against seniors, how we can prevent them, and also a better 
understanding about how people are victimized.
    Protecting the financial security of older Americans must 
be a priority. They work very hard for their money, and as they 
get older, when they talk about a ``rainy day,'' the rainy day 
can often be an everyday occurrence with the rising cost of 
health care and the rising cost of prescription drugs. Seniors 
need their money. Then, along come those who want to engage in 
despicable things like telemarketing scams, identity theft, and 
investment scams to take people's hard-earned money away from 
them.
    This hearing today is about how older Americans have been 
the victims of financial schemes and swindlers, and we need to 
talk about what the Federal Government must do to crack down on 
these schemes.
    As I move around my own State, I have heard from seniors 
who are victims of these financial scams. Some, we will hear 
from today, like Mr. Chambers. Mr. Hammond, representing the 
AARP from the Eastern Shore of Maryland will talk about how 
AARP's educating older Americans about these schemes.
    We will hear people talk about how they were promised 
investment schemes that would yield 18 percent in annual rates 
of return, and then, when it came time for the note to mature, 
the man lost the $20,000 he invested.
    There was a Silver Spring woman who got a telemarketing 
call that offered an opportunity to save money on food and 
vision care, but by the end of the day, she lost her life 
savings.
    And again, we will be hearing form Mr. Richmond Chambers of 
Chevy Chase, who was the victim of a credit card scam.
    Then, we turn to not only listening to the horror stories 
but also to how we can correct them. So we look forward to 
hearing from Maryland Attorney General Joe Curran, who has been 
doing a fantastic job fighting these rip-off artists.
    What are the facts? Financial scams against people over 65 
is not just a Maryland problem; it is a national problem. As 
you said, 40 percent of all elder abuse involves some kind of 
financial exploitation. It ranks third behind neglect and 
emotional/psychological abuse as one of the most prevalent 
victimizations of the elderly.
    Telemarketers--the illegal kind--bilk Americans out of $40 
billion every year. That is 10 percent of what we want to spend 
on prescription drugs. Isn't this amazing?
    So we need to protect our retirees. Honoring your mother 
and father is not only an excellent commandment--it is really 
good public policy. That is why we want to make sure that the 
way we honor them is to be able to have the right programs, the 
right public education, and the right legislative approaches to 
protect them, whether it is high-tech fraud on the Web, 
telemarketing, fraudulent investments, or just overt harassment 
to squeeze money out of them.
    That is why I have cosponsored the Elder Justice Act--
leading the way is our colleague, Senator Breaux--to protect 
our seniors.
    State and local governments are on the front lines, 
preventing, detecting, and fighting financial abuse of seniors. 
But the Federal Government must play a more important role in 
preventing these scams and swindlers. We think public education 
and prevention are key. We also think that legislative 
approaches like the Do Not Call List are another important 
part.
    We also think we need to look at what are the tools the 
Federal Government already has. Every month, they mail out 
checks to veterans, to senior citizens on Social Security, the 
Railroad Pension Act, and we think we need to be able to make 
greater use of those mailings to do the kinds of tips and 
advice that people can use to protect themselves.
    I want to give help to those people who have practiced 
self-help all of their lives.
    Thank you very much, Mr. Chairman. I look forward to the 
hearing.
    [The prepared statement of Senator Mikulski follows:]

                 Prepared Statement of Senator Mikulski

    Mr. Chairman, thank you for holding this important hearing 
today on financial abuse of older Americans.
    Protecting the financial security of older Americans must 
be a priority, with more prevention and punishment of crimes 
against seniors like telemarketing scams, identity theft, and 
investment scams.
    I sympathize with each and every senior and their family 
that has been a victim of financial scams.
    This hearing is about how older Americans have been the 
victims of financial scams and swindlers and what the Federal 
Government must do to fight and crack down on these schemes and 
scum.

Maryland Impact

    As I travel around Maryland, I hear from seniors who are 
victims of financial scams. For example:
    Story 1: Maryland resident's insurance agent told him about 
a unique investment opportunity.
    <bullet> Nine month promissory notes that would yield an 18 
percent annual rate of return.
    <bullet> Notes were supposed to be secured by automobile 
titles and the man agreed to invest $20,000.
    <bullet> When it was time for the note to mature, he found 
out that the investment was not secured by anything.
    <bullet> His money was gone, and the insurance agent was 
not registered to sell securities in Maryland.
    Story 2: Silver Spring, MD woman got a telemarketing call 
that offered her an opportunity to save money on food, jewelry, 
and vision care.
    <bullet> Caller also told her they would send her large 
checks, totaling as much as $25,000.
    <bullet> But the telemarketers repeatedly asked her to send 
them money before she received her prizes.
    <bullet> She spent her life savings--more than $21,000--and 
received only a few hundred dollars worth of merchandise she 
did not need nor want.
    Today the subcommittee will hear from Richmond Chambers of 
Chevy Chase, MD who was the victim of a credit card scam. I 
want to thank him and his family for taking the time to be here 
today.
    I look forward to hearing from Maryland Attorney General 
Joseph Curran, who has been doing such a great job in Maryland 
combating these rip-off artists. But he can't do it alone.

The Problem

    Financial scams against people over age 65 is not just a 
Maryland problem. It is a national problem. Forty percent of 
all elder abuse involves some form of financial exploitation. 
Financial abuse ranks third behind neglect and emotional/
psychological abuse as the most prevalent form of elder abuse. 
Every year illegal telemarketers bilk Americans out of an 
estimated $40 billion. Nearly a third of all telemarketing 
fraud victims are age 60 or older.

Need To Protect Retirees

    Honoring your mother and father is not only an excellent 
commandment, it is good public policy. That's why I believe 
that one of the important things we can do is protect our 
retirees from scams, scum, and swindlers. I'm talking about the 
cunning rip-off artists who viciously prey on retirees to scam 
them out of their money, their assets, their homes, and their 
possessions. Whether it is high-tech fraud on the web, 
telemarketing, or fraudulent investments.

Bam Action

    That's why I have cosponsored the Elder Justice Act (S. 
333) to provide more Federal resources and tools to fight elder 
abuse and financial scams.
    It would help prevent financial scams against the elderly 
by grants to prevent, detect, intervene in, investigate and 
prosecute financial fraud and exploitation. It will also 
provide training for police, attorneys, adult protective 
services personnel, and bank personnel.

                       Role of Federal Government

    State and local governments are on the front lines 
preventing, detecting, and fighting some financial abuse of 
seniors. But the Federal Government must play an important role 
in preventing scams and swindlers from cheating older 
Americans, it must be a resource and a line of defense. It must 
crack down on those who scam and defraud seniors.
    Public education and prevention are key. Whether it is 
adding your name to the Federal Trade Commission's Do Not Call 
list at http://donotcall.gov/ or using the FTC's toll free 
hotline to report complaints or get information to help make 
sure you are not the victim of a scam (1-877-FTC-HELP).
    I'm pleased that W. Lee Hammond of Salisbury, MD is here 
today on behalf of HARP to share how they are educating the 
public about financial scams.

                                Closing

    I want to thank those who fight on a daily basis to help 
protect our retirees from scams and swindlers. Their efforts 
are invaluable.
    I look forward to hearing from our witnesses about how 
seniors have been the victims of scams and swindlers and what 
the Federal Government should do to stop these schemes.
    Senator Bond. Thank you very much, Senator Mikulski.
    As I said, we are very pleased to be joined by the Senate 
leader in the elder abuse prevention effort, the distinguished 
Senator from Louisiana, Senator John Breaux.
    Senator Breaux, we thank you for the very comprehensive and 
thoughtful statement that you have submitted. We will make that 
a part of the record, and I now invite you to make such 
comments as you wish.
    Senator Breaux. Thank you very, very much, Mr. Chairman. I 
will be very brief. Thank you, Senator Mikulski.
    And really, I want to say to both of you thank you very 
much for your leadership in this area. It is so refreshing to 
see not just one committee but multiple committees in the 
Congress now focusing in on the issue of elder abuse.
    I remember over 30 years ago when I was in the House of 
Representatives, and our dearly departed colleague Claude 
Pepper was running around, holding hearings and doing 
everything he possibly could to benefit the conditions of 
elderly citizens in this country. I was a very young Member of 
the House then, and I could never really understand his intense 
interest, other than the fact that he was so much older than I 
was, and I guessed that was why he was doing it.
    But here we are, 30-some years later, and we are still 
talking about it. I have never seen a Senator or a Congressman 
in my 32 years here who has been in support of elder abuse; 
everybody is totally opposed to it. And time after time and 
year after year, we have meetings and hearings, and we give 
speeches about the horrors of elder abuse. But we have not yet 
crossed the threshold to what are we going to do about it.
    We have these horror stories--Mr. Curran testified before 
our Aging Committee; Mr. Blancato testified before our Aging 
Committee, and they are now here today. I would just suggest--
and both of you have been leaders in this effort to get behind 
the major piece of legislation that we all are working on 
together called the Elder Justice Act, Senate bill 333.
    We have over 31 cosponsors in the Senate and a significant 
number, bipartisan, in the House. Most of your subcommittee 
members have also sponsored a hearing. The full committee has a 
significant number of sponsors on the bill, four of your 
subcommittee members and eight of your full committee members.
    We have to act on this legislation. If we want to leave a 
legacy of accomplishment, it has to be more than just having 
hearings, which we have done and you are doing--it has to be a 
product, it has to be something that we have done about the 
problem. We have now convinced the American public it is a 
problem.
    So there are several stages--you convince the American 
people there is a problem; you offer a solution to that 
problem, and then you put together the political will to do 
something about it. And I think we are now at the third stage, 
and I think your hearing today, Mr. Chairman and Senator 
Mikulski, will be very helpful in convincing those final few 
Members that we have to convince in the Senate to push forward 
with this legislation, and I commend both of you for doing 
that.
    Senator Bond. Thank you very much, Senator Breaux.
    [The prepared statement of Senator Breaux follows:]

                  Prepared Statement of Senator Breaux

    Chairman Bond, Ranking Member Mikulski and Members of the 
Subcommittee. I would like to thank you for holding today's 
hearing on financial exploitation of the elderly. I applaud you 
for your efforts to address this growing problem. I also thank 
you for your co-sponsorship of S. 333, the Elder Justice Act, 
introduced by me, Senator Orrin Hatch and a bi-partisan list of 
31 other Senate co-sponsors. I am convinced that we must find 
creative solutions for combating this and other forms of abuse. 
As the baby boomers age, this subject will only continue to 
grow in significance.
    Over the last 25 years, we in Congress have focused on 
different types of elder mistreatment including physical abuse, 
sexual abuse, emotional or psychological abuse, abandonment and 
neglect to merely name a few. Congress has focused on abuse in 
institutions as well as home settings. Today, this subcommittee 
focuses on yet another form of elder abuse: the financial and 
material exploitation of our elderly.
    Elder abuse in general is difficult to quantify. In fact, 
there is a dearth of data on the subject and a large disparity 
is evident between the number of cases reported and those that 
go unreported. According to the 1998 National Elder Abuse 
Incidence and Prevalence Study, the only such study on the 
subject, only 16 percent of all elder abuse cases are actually 
reported, leaving an incredible 84 percent of the cases 
unreported. Clearly, reported cases of elder abuse are merely 
the ``tip of the iceberg.''
    Experts believe that there are between 500,000 and five 
million reported instances of elder abuse each year in this 
country. In fact, elder financial abuse ranks third only behind 
neglect and psychological abuse as the most prevalent form of 
elder abuse. Approximately 30 percent of abuse is believed to 
be financially related. This is not surprising, considering the 
fact that those over 50 years of age control at least 70 
percent of the nation's household net worth. It's no wonder the 
elderly are targets of financial crimes--crimes expected to 
increase as baby boomers age.
    The results of financial exploitation can be devastating. 
The independence of our older Americans can be shattered and 
long-term psychological and emotional scars may never be 
overcome. There is even evidence to suggest that financially 
abused elders have a higher risk of premature death.
    At hearings held by the Special Committee on Aging last 
year, we heard witnesses testify to various forms of financial 
exploitation of the elderly.
    <bullet> Carl Fioche from Tacoma, Washington lost his home, 
his savings and declared bankruptcy at 79 years old. He did 
this due to financial exploitation by a much younger woman, 
apparently part of a gypsy con-artist ring operating in this 
country.
    <bullet> Marie Bobo of Tacoma, Washington was imprisoned 
alone in her own ``chamber of horrors'' by her daughter who 
kept half of her mother's income only feeding her mother one 
bowl of food and water each day. An emergency team found her 
permanently constricted in the fetal position in a most 
unimaginable condition.
    <bullet> Bill Blevins of Manassas Park, Virginia, told the 
committee about the convicted felon who befriended and 
exploited his 72-year-old cousin, and dozens of other seniors, 
out of millions of dollars in Northern Virginia. This was 
accomplished by isolating the seniors and exerting undue 
influence over their decisions.
    Everyday my staff receives reports of abuse around the 
country. Just this week, we received a report that a bookkeeper 
in Illinois was sentenced to 12 months incarceration and 
ordered to pay $23,000 in restitution for theft of monies, 
leaving the victim penniless and buried in a pauper's grave 
with no headstone. Here are some of the stories we've seen 
recently in a few of the States represented by this 
subcommittee:
    <bullet> Virginia--a daughter was charged with felony abuse 
and neglect of her father, refusing help so that she had access 
to his $800 disability check monthly.
    <bullet> Ohio--a former caretaker and her teenaged daughter 
are accused of murdering a 79-year-old woman for money 
presumably left in a will.
    <bullet> Tennessee and North Carolina--the daughter of an 
88-year-old woman whose frozen remains were found 2 years ago 
on Roane Mountain in North Carolina was charged with reckless 
homicide and two counts of theft, including $10,000 in Social 
Security checks.
    <bullet> Washington--a businessman was sentenced to 7.5 
years in prison for stealing more than $200,000 from his senile 
stepmother's estate while serving as her legal guardian.
    <bullet> Colorado--a court conservator entrusted to oversee 
the estate of a 101-year-old Alzheimer's victim was charged 
with swindling the woman out of almost $2 million.
    <bullet> Massachusetts--a disbarred attorney was charged 
with stealing more than $350,000 from clients and failing to 
file State income returns.
    These are just a few of the stories we see daily. I know 
the Chairman and Ranking Member are aware of stories from their 
own States.
    The stories of financial exploitation of the elderly are 
endless. Today's hearing, will focus on this growing phenomenon 
in our society where all too often life savings are depleted 
and the vulnerable elder population is exposed to financial 
ruin.
    As more and more of the baby boomers draw closer to senior 
citizen status, sons, daughters, grandchildren, and our society 
must exercise vigilance in protecting those who have protected 
us during our vulnerable years. What we have found is that in 
most States, the protective system currently in place, although 
well intended, is fragmented at best. Public service 
professionals across our country unanimously agree that 
protection services, law enforcement and prosecutors lack the 
special skills, training, funding and legislative support to 
properly investigate and resolve increasingly complex cases of 
elder financial abuse. With the lack of comprehensive, ongoing, 
reliable studies regarding the extent and nature of elder 
financial abuse, there is little information to help us focus 
on designing specific services and remedies. This hearing will 
help to lift the veil from elder financial abuse and support 
the creation of a functional elder justice infrastructure.
    I believe abuse, neglect and exploitation is one of the 
gravest issues facing millions of American families. It is 
essential that we begin to put in place the infrastructure to 
understand and address the myriad of issues facing older 
Americans. We must ensure that older Americans are safe in 
their homes and in institutions and free from all types of 
abuse: physical, sexual, financial and neglect.
    Mr. Chairman, these are among the several reasons, why 
Senator Hatch and I offered the Elder Justice Act, S. 333, as 
part of that solution. I am pleased to say we have 33 
cosponsors in the Senate and a companion bill introduced in the 
House. Between the two houses, S. 333 and H.R. 2490 have almost 
100 cosponsors, and the number continues to grow. Four of the 
Senate cosponsors are members of this subcommittee and eight 
cosponsors are members of the full Committee on Health, 
Education, Labor and Pensions. More than half of the members of 
the Finance Committee, the committee of jurisdiction, are 
cosponsors of the bill.
    Congress has passed comprehensive bills to address the ugly 
truth of two other types of abuse--child abuse and crimes 
against women. These bills placed both issues into the national 
consciousness and addressed the abuses at a national level. 
Yet, despite dozens of congressional hearings over the past two 
decades on the devastating effects of elder abuse, neglect and 
exploitation, interest in the subject has waxed and waned, and 
to date, no Federal law has been enacted to address elder abuse 
in a comprehensive manner.
    The time has come for Congress to provide seniors a set of 
fundamental protections. Nursing homes are regulated at both 
the Federal and State levels. Yet, abuses still occur. The 
larger percentage--approximately 80 percent--of our older 
population is cared for in homes, not nursing homes and other 
institutions. We are ill-equipped on both public health and law 
enforcement levels to address these abuses of our seniors now, 
and I submit we will be far less equipped to prevent abuses in 
the near future as 77 million baby boomers advance in age. The 
Elder Justice Act will elevate elder abuse, neglect and 
exploitation to the national stage in a lasting way. We want to 
ensure Federal leadership to provide resources for services, 
prevention and enforcement efforts to those on the front lines 
in the States.
    The Elder Justice Act addresses elder abuse in a 
comprehensive manner in homes and in institutions. It seeks to 
jump-start research and promising projects and improve the 
quality, quantity and accessibility of information. In 
addition, the bill seeks to develop forensic capacity to assist 
in the detection of elder abuse and train individuals to combat 
abuse by recognizing the signs. Also, I would like to mention 
just a few of the provisions of the bill that address abuse of 
our older Americans:
    <bullet> The bill enhances detection by creating forensic 
centers and developing to enhance detection of the abuse.
    <bullet> The bill bolsters treatment by funding efforts to 
find better ways to mitigate the devastating consequences of 
elder mistreatment.
    <bullet> The bill increases collaboration by requiring 
ongoing coordination at the Federal level, among Federal, State 
and local private entities, law enforcement, long-term care 
facilities, consumer advocates and families.
    <bullet> The bill aids prosecution by assisting law 
enforcement and prosecutors to ensure that those who abuse our 
nation's frail elderly will be held accountable, wherever the 
crime occurs and whoever the victim.
    <bullet> The bill improves prevention and intervention by 
funding projects to enhance long-term care staffing.
    Finally, Mr. Chairman, even more specific to financial 
exploitation, the bill provides the following requirements:
    <bullet> Prompt reporting of crimes in long-term care to 
local law enforcement;
    <bullet> Criminal background checks for all long-term care 
workers; and
    <bullet> Model State laws and practices developed to share 
with the States.
    <bullet> Training of social services, judges, prosecutors, 
law enforcement, the public and others to address elder abuse 
from a multi-disciplinary setting.
    <bullet> Creation of a research institute to aid 
prosecutors in preparing cases of elder abuse.
    <bullet> Enhanced community policing efforts to protect at-
risk elders.
    <bullet> Victim assistance, ``safe havens,'' and support 
for at-risk elders.
    <bullet> Enhancement of Adult Protective Services in the 
States to address abuse in home settings.
    The cost of elder abuse and neglect is high by any measure. 
The price of this abuse is paid in needless human suffering, 
inflated healthcare costs, depleted public resources, and the 
loss of one of our greatest national assets--the wisdom and 
experience of our elders. With scientific advances and the 
graying of millions of baby boomers, the number of the elderly 
on the planet passed the number of children for the first time 
last year. Although we have made great strides in promoting 
independence, productivity and quality of life, old age still 
brings inadequate health care, isolation, impoverishment, abuse 
and neglect for far too many Americans.
    I believe the Elder Justice Act can provide many of the 
solutions we seek today with regard to financial exploitation 
of the elderly. The bill has broad support across diverse 
segments of the populations and across party lines. It is 
supported by a coalition of more than 190 organizations 
nationwide.
    I thank you, Mr. Chairman, for providing me the opportunity 
to submit these comments for the record, and again, thank you 
for all your efforts to improve the quality of life for older 
Americans.
    Senator Bond. Now I turn to my good friend, Senator 
Mikulski, to introduce all the witnesses that she has brought 
from Maryland. It looks like it is a bit Maryland-packed, but 
we are delighted to have the experts that you have invited.
    Senator Mikulski. Thank you very much, Mr. Chairman.
    First of all, it is a little bit Maryland-tilted, but our 
Attorney General, Joe Curran, has really led the fight--and I 
believe you were also an attorney general before you became 
Governor; am I correct?
    Senator Bond. I was chief counsel in the Consumer 
Protection Division. I was working for Jack Danforth; he was 
the only one who would give me a job.
    Senator Mikulski. So then, you know the vigor that there 
can be at the State level, because a Federal program cannot be 
a one-size-fits-all, Mr. Chairman. So much has to be oriented 
around the State. Some are very rural, like Utah, some are very 
urban. This is why we are proud to introduce Attorney General 
Joe Curran, who has vigilantly fought to protect children 
against child abuse. He has been a national leader on consumer 
protection, particularly Medicaid fraud protection, securities 
regulation, and now he has launched Project SAFE, Stop Adult 
Financial Exploitation.
    He has been a real leader in this, and again, I think we 
can learn what we can do to help the States, because it has 
really got to be at that level.
    We will also hear from Mr. W. Lee Hammond, who comes to us 
from Salisbury, MD and is here representing the AARP. He is on 
the Board of Directors. He has a broad knowledge of these 
programs, and we look forward to hearing from him.
    And we welcome Mr. Chambers who is from Chevy Chase, MD, 
who was the subject of Visa card fraud.
    Rather than long introductions, we really need to hear from 
them, each one of whom brings great expertise, and Mr. Hammond 
represents a national organization.
    Senator Bond. Thank you, Senator Mikulski.
    I am very pleased to introduce a long-time friend, Carol 
Scott, from my home State of Missouri. Ms. Scott is the 
Missouri Long-Term Care State Ombudsman, currently serving as 
president of the National Association of Long-Term Care 
Ombudsman Programs. Prior to that, she was legislative liaison 
for the Division of Aging and a budget analyst for the Division 
of Medical Service. She is currently a member of the 
Professional and Technical Advisory Committee on Long Term Care 
and Assisted Living of the Joint Committee on Accreditation of 
Health Care Organizations.
    Carol, we appreciate you making the trip up here.
    We are very pleased also to have Mr. Robert Blancato with 
us today. He is the president of the National Committee for the 
Prevention of Elder Abuse. His career involves more than 25 
years in public service in both Congress and the executive 
branch, serving as staff director of the House Select Committee 
on Aging Subcommittee on Human Services, and a senior advisor 
until 1993. He served as executive director of the 1995 White 
House Conference on Aging, appointed by President Clinton.
    He has many other recognitions, serving as national 
coordinator for the recently-launched Elder Justice Coalition, 
and in December of 2000, he launched CaregiversCount.com, an 
online resource for up-to-date nonpartisan information.
    With that, let us turn to the witnesses and see how many we 
can get in before we have to leave for the vote. To all of you, 
we will accept your full statement for the record, which all of 
us on the committee and the subcommittee will find helpful. We 
ask because of the time constraints that you try to keep your 
testimony to 5 minutes so we will have time for questions.
    With that, Mr. Chambers, thank you very much for being 
here. We look forward to having your testimony.
    Thank you, sir.

       STATEMENT OF RICHMOND D. CHAMBERS, CHEVY CHASE, MD

    Mr. Chambers. Thank you, Senator.
    I am pleased to be here today to describe a scam against 
elderly Visa credit card holders. I live in a condominium 
apartment at 8101 Connecticut Avenue in Chevy Chase, MD.
    I received a telephone call on April 2, 2003 from a man 
purporting to be a representative of the Visa organization. He 
said Visa had sustained a computer problem in which information 
on 5,000 accounts had been lost and that certain information 
had to be retrieved if my account was to remain active.
    I had received a similar call some months before from a 
source that hung up when I refused to answer his questions. I 
was again suspicious. I asked this caller a number of 
questions, which he answered very convincingly. He finally gave 
me a toll-free number which he said would verify his identity. 
I called back and was answered by a female who said ``Visa'' 
and connected me with the original caller. I believed he had 
established his identity, and I gave him three numbers on the 
back of my Visa card which he requested. I also gave him my 
mother's maiden name and my Social Security number. He in some 
way had already secured my address, Visa card number, and 
obviously my phone number.
    The next day on leaving my apartment, I found a flyer at my 
door entitled, ``Resident Alert.'' The document was issued by 
my apartment manager and described exactly the Visa fraud in 
which I had been victimized the previous day. I immediately 
called the fraud unit at Visa and related the incident. After 
verifying several charges to my account, I was asked if I had 
charged $2,750 to Western Union. I had not. I later discovered 
that Visa had authorized the claim but had not issued payment 
against the charge. My account was closed and reestablished 
with a new number.
    I was fortunate that I had sustained no financial loss in 
the matter. I reported the entire affair to the Montgomery 
County police, who arranged two television appearances for me 
to publicize this scam. The Montgomery County, MD police and 
the State's attorney for Montgomery County have updated me on 
this case. The policy determined that the scam operators were 
based in Miami, FL. Officers were dispatched to Miami to 
investigate.
    With the cooperation of the local police, 11 suspects were 
arrested and expected to Montgomery County, MD to face trial. I 
was recently informed that approximately 40 residents in the 
general Chevy Chase area were victimized by this scam. A number 
of the victims actually had money paid from their Visa accounts 
to Western Union for pickup.
    At least five additional residents of my condominium were 
victimized in these scheme along with residents across the 
street in an assisted care residence. I have no information 
regarding whether those arrested had information on the ages of 
their victims. I was favorably impressed with the reaction of 
the valid Visa representative, the Montgomery County police, 
the local television stations, and our alert building manager, 
Katie Wyrsch, all of whom had a part in bringing these alleged 
criminals to justice.
    Thank you.
    Senator Bond. Well, congratulations, Mr. Chambers. Thank 
you very much for playing a leadership role. It is good to hear 
a success story, and we hope that those people are now residing 
in public accommodations with bars on the windows.
    Mr. Chambers. I understand they are.
    Senator Mikulski. We got their number--they got a number.
    Senator Bond. Thank you for your aggressiveness, Mr. 
Chambers. You have served many of your friends and neighbors 
very well.
    Senator Bond. Now let us turn to the distinguished attorney 
general, General Curran. Thank you for being here.

STATEMENT OF J. JOSEPH CURRAN, JR., ATTORNEY GENERAL, STATE OF 
                    MARYLAND, BALTIMORE, MD

    Mr. Curran. Permit me also to say thank you to Mr. Chambers 
for your quick action and the education that was available in 
Montgomery County.
    I believe that it is education of the public and 
enforcement by law enforcement, both Federal and State--and 
permit me, Senator, if I might say on behalf of all of my 
colleagues in the attorneys general offices across the Nation 
that on the issue of preemption, which I know comes up from 
time to time, that I simply urge you to consider when these 
issues arise that the local persons on the scene, be it in 
Chevy Chase or in Baltimore or in St. Louis, are the ``cops on 
the beat,'' so to speak, and with rare exceptions, we do not 
endorse the idea of preemption. But I do understand that there 
may well be some times.
    Having said that, Senators, education is indeed a real 
effort to deal with financial fraud. We have, Mr. Chairman, a 
very aggressive consumer protection division, as you have in 
Missouri. I am pleased to say that about 100,000 times a year, 
someone calls our office with a concern, and we do respond. I 
have with me here our securities commissioner in Maryland, 
Mounty Lubin, and she will verify that of all the securities 
scams that we have contact with, seniors are involved in all of 
them. Now, that is not to say that some nonseniors are also not 
scammed, but I can promise you that every scam we have involves 
seniors.
    One, as you have already said, they have money; they are 
growing older; they fear that they will outlive their savings--
in the volatile stock market, interest is low, and there is a 
need now to get more income to take care of the cost of living 
and prescription costs. So they are targets, and they are 
susceptible.
    You mentioned the SAFE program. Something I never realized 
before--my own daughter brought to my attention some years ago 
that a nextdoor neighbor of hers, a senior with some 
limitations, to be honest with you, living by herself 
notwithstanding, was being systematically defrauded when she 
went to the bank. How could that be?
    What is happening is--and I did not realize this--is that 
many folks, including myself, to be honest with you, do not 
have these ATM cards, and we rely on going to our favorite 
bank, seeing our favorite teller, and making a withdrawal for 
our weekly expenses. Then, suddenly, there was a large series 
of withdrawals by this same lady, who came in with a stranger, 
and the teller could not do anything. Federal laws--and State 
laws, for that matter-prohibit disclosure--it is my money, and 
what I want to do with it--but the teller was not able to do 
anything.
    I am happy to say that with the cooperation of the banks, 
we now have a law in Maryland that will permit the bank teller 
who is suspicious that something is amiss to say something, 
bring it to the attention of a supervisor, and he in turn looks 
into the situation and calls protective services in the Office 
on Aging, and someone will visit the senior.
    So it just goes to show you how a little initiative--and 
the banks now are involved, and when they see something that 
does not look right, they do something, rather than say, ``It 
is your money.''
    The lottery is a big problem. You go to the mall, and in 
the mall, you see ``Win a prize,'' like a trip to Florida, or 
``Win a cake,'' for that matter, and you fill in a little card. 
Well, when you fill in that little card, more often than not, 
that's where--maybe you are eligible for a prize, but you are 
also going to get on a list. And then, seniors get a call that 
``You have just won a big prize.'' In Baltimore County, Senator 
Mikulski, just the other day, someone complained of losing 
$30,000. We had a lady in Cecil County who lost $600,000 in a 
Toronto--a lot of it is coming from Canada--Miami was just 
referred to--we have seen these calls come in from Canada, 
where they advise you that you have won a Canadian lottery, and 
all you need to do is send a check to cover the expenses, the 
cover the lawyer's fees or to cover the taxes--and then they, 
sadly, write a check and send it to Toronto. This woman lost 
$600,000. Sadly, we were not able to get much of the money back 
because the Feds, working with the State police and the 
Canadian folks, caught these guys--they were later prosecuted 
in Kansas City, I am happy to say, and they went to jail, 
because there was a stronger case there than we had in 
Maryland--but by then, the money was gone.
    Education and enforcement--I have a statement here of a 
range of things that are of concern to us--but I would say that 
if you have some laws that permit preemption, be careful of 
that. Let us do our thing at our level. On the banking 
situation, continue, if you will, please, to permit the banks 
to have a relaxed rule in which they can call law enforcement 
when there is something suspicious.
    We do--and I have left with you some ideas of--I am happy 
to say, Senator Mikulski, that the things that we give you, 
like a ``Consumer Guide for Seniors''--this is paid for not by 
you and me as taxpayers but by the money we recover from the 
bad guys. We turn that into publications, senior seminars, and 
other outreach. But our message would be that enforcement at 
the local level would continue to be very effective.
    Thank you.
    Senator Bond. Thank you very much, General Curran, and 
thank you for your great work. As one who came to Washington 
because I was tired of being preempted in so many things when I 
was Governor of Missouri, I share that concern. I think we need 
to balance this out. This is one area where I do have some 
concerns. We are delighted to see where the States are doing 
well, and there is clearly a role for the Postal Service, the 
FBI, and others, but nothing beats the cop on the beat.
    [The prepared statement of Mr. Curran may be found in 
additional material.]
    Senator Bond. Now let me turn to one of my favorite cops on 
the beat, Carol Scott.

    STATEMENT OF CAROL SCOTT, MISSOURI STATE LONG-TERM CARE 
  OMBUDSMAN, AND PRESIDENT, NATIONAL ASSOCIATION OF LONG-TERM 
               CARE OMBUDSMEN, JEFFERSON CITY, MO

    Ms. Scott. Good morning. Thank you for inviting me to speak 
on the very important topic of financial abuse. I want to 
congratulate you for focusing on elder abuse and for being 
among the leaders in the effort to get people off their rockers 
and do something to help elderly and disabled Americans who are 
being abused, neglected, and exploited. their health, security, 
and sometimes their lives are cut short because of the actions 
and inactions of others.
    As a long-term care ombudsman, I am one of 10,000 staff and 
volunteers from across the country who are trained to advocate 
on behalf of residents of long-term care facilities. We visit 
nursing homes and board and care facilities and listen to the 
issues, complaints, and questions of residents, their friends 
and families.
    In addition to individual advocacy, ombudsmen are to ensure 
that policymakers are aware of places in the system where 
improvements are needed. Well, here I am, representing not only 
the Missouri ombudsman program, but the national ombudsman 
program. Our national organization is a founding member of the 
Elder Justice Coalition, which is committed to ending elder 
abuse.
    Perpetrators can be family members, friends, health care 
professionals, and con men and women. We need to act now. 
Legislation before this Congress, Senate bill 333 and H.R. 
2490, will put into place needed training, data collection, 
legal assistance, investigative assistance, and most of all, 
beefing up of the adult protective services programs across the 
country, as well as assisting law enforcement, prosecutors, and 
judges.
    I want to tell you about two Missouri cases that exemplify 
the growing crisis. ``Mary'' is a 91-year-old resident of a 
nursing home. She is mentally competent, and she is living in 
the nursing facility because her durable power of attorney took 
her to the facility for a visit and just left here there. Mary 
was afraid to object to this action.
    Mary owns several farms and two homes. The local ombudsman 
was informed that one of Mary's farms and many of her household 
items had been sold and that Mary was not aware of this. The 
ombudsman visited Mary and asked if she knew that one of her 
farms had been sold. ``How could he do that?'' Mary was very 
upset and requested the ombudsman's help.
    The person selling the property had Mary's durable power of 
attorney which she had signed when she was in the hospital and 
very ill. She does not remember signing the document, and she 
said she certainly had no intention of allowing someone to sell 
her property without her knowledge and permission.
    The ombudsman assisted Mary in getting an attorney and in 
repealing the durable power of attorney document. In the 
meantime, 250 acres of land and many of her household items are 
gone forever. The announcement of the auction of the household 
items did not list Mary as the owner of the property because 
the durable power of attorney holder ``did not want her to be 
upset.''
    In the second case, an in-home aide stole money from three 
clients. She took $900 from one of the clients. Luckily, this 
case was referred for prosecution, and the aide pled guilty to 
charges of Class C felony forgery and Class C felony stealing. 
She has also been placed on the Missouri Employee 
Disqualification List, which for 5 years prevents the aide from 
working in the in-home agency or nursing facility industry.
    These two cases demonstrate that the elderly can be 
exploited by anyone who has access to them. Whether by 
intimidation or outright stealing, something must be done to 
make it easier for people to report crimes, something that will 
assist with the coordination between adult protective services, 
long-term care ombudsmen, nursing home licensing staff, law 
enforcement, and district attorneys.
    There are many groups and organizations in the aging 
network, from the National Association of State Units on Aging 
to AARP to local senior centers and long-term care ombudsmen. 
Stopping abuse will take more than just this network. It will 
take regular citizens asking questions, courts that are 
prepared to hear cases, and a better understanding of who can 
become a victim.
    The Elder Justice Act will provide Federal resources to 
support State and community efforts on the front lines, to 
those dedicated to fighting elder abuse with scarce resources 
and fragmented systems. And maybe more important, this Act will 
bring national attention to the issue of abuse, neglect, and 
financial exploitation.
    The time for the Elder Justice Act is now. Senator Bond, 
you just completed a tour of Missouri where you said that 
congress had its first hearing on this topic almost 30 years 
ago. Well, I join you in declaring that the time is now. I 
believe that it is now time for Congress, elder Americans, and 
elder advocates to ``get off our rockers'' and get the job 
done.
    Senator Bond, Senator Mikulski, the Elder Justice Act is a 
fine piece of legislation. Please do not allow another year to 
go by without its passage.
    Thank you for this opportunity for me to get off my rocker 
and make a difference.
    Senator Bond. Thank you very much, Carol. I knew you would 
give us a good jab, and we probably need that.
    [The prepared statement of Ms. Scott may be found in 
additional material.]
    Senator Bond. Mr. Blancato?

STATEMENT OF ROBERT BLANCATO, PRESIDENT, NATIONAL COMMITTEE FOR 
         THE PREVENTION OF ELDER ABUSE, WASHINGTON, DC

    Mr. Blancato. Thank you, Mr. Chairman.
    I commend this subcommittee for holding this hearing on 
financial abuse and exploitation of the elderly. I also salute 
you, Mr. Chairman, and Senator Mikulski for being cosponsors of 
S. 333.
    Our primary focus must be on the vulnerable elderly victims 
of abuse. The Elder Justice Act notes that victims of elder 
abuse, neglect, and exploitation are 3.1 times more likely to 
die at an earlier age than expected compare to nonvictims. The 
1998 study by the National Center on Elder Abuse which you 
mentioned said that 40 percent of all reported cases of elder 
abuse involve some form of financial abuse. More crimes against 
the elderly involve financial abuse than physical abuse. Adult 
protective service agencies investigate more cases of financial 
abuse than physical abuse, according to another NCEA study in 
2004 from 44 States.
    Financial abuse of the elderly, a majority of which is 
committed by family members, may be any of the following 
criminal acts: stealing, larceny by false 
pretense,embezzlement, forgery, uttering, extortion, burglary, 
and robbery.
    Indicators of financial abuse that have occurred or are 
likely to include erratic or uncharacteristic bank activities 
such as the active use of the ATM card of a homebound senior; 
recent acquaintances, especially those taking up residence with 
an elderly person; missing property; an older person being 
evicted or having utilities disconnected; redirection of an 
older person's mail to a different address.
    Then, we have some recent news headlines which provide 
further illustration. Brooklyn, NY: ``New York Judges 
Investigated over Aunt's Fortune.'' Two nephews, both judges in 
New York, gained control of their elderly aunt's assets; her 
fortunate went from $1 million to less than $10,000.
    Exeter, NH: ``Son Charged with Stealing from Dad in Nursing 
Home.'' This involved a man indicted for stealing more than 
$6,000 from his own father living in a nursing home.
    Kingston, NY: ``Couple Charged for Nursing Home Scam.'' 
This involved the sentencing of the second person for a scam 
which involved stealing of more than $1 million from 19 nursing 
home patients through the establishment of joint bank accounts.
    Seatac, WA: ``Mayor Pleads Guilty, Resigns, Vows to Repay 
Money.'' This involved a plea of guilty to first-degree theft 
for taking more than $139,000 from the trust of an 86-year-old 
woman who was a 30-year friend of this mayor.
    Federal support for prevention, training, and public 
awareness programs is critical. I would like to offer four 
initial recommendations for The Older Americans Act to consider 
as you look ahead to the next reauthorization.
    One, strengthen a good program, Title VII, which supports 
elder abuse prevention activities and the Long-Term Care 
Ombudsman Program. The total appropriation for prevention is 
less than $5 million nationally. The value of prevention 
programs needs to be better-recognized with increased 
appropriations. Title VII funds should be used to expand 
successful local prevention programs and to help develop those 
where they do not exist.
    Two, closer collaboration between the National Family 
Caregiver Support Program and elder abuse prevention. Elder 
abuse by family caregivers is rising. Some of the information 
and referral activities could better focus on educating 
caregivers on indicators or problems that could be a future 
basis for abuse.
    Three, review how Title VI and Title VII can be more 
responsive to elder abuse affecting American Indians. A report 
will soon be released by the National Indian Council on Aging. 
Early findings show that two-thirds of those Tribal grantees 
surveyed said that financial abuse is the most common form of 
abuse they encounter.
    Four, the next White House Conference on Aging should give 
priority attention to elder abuse and specifically address 
issues related to senior and boomers as they age. As you noted, 
Mr. Chairman, 70 percent of all wealth is held by those 50 and 
over. Intergenerational transfers of wealth will increase as 
boomers age. Even more serious financial abuse may be just 
around the corner.
    One immediate request--additional funding for the social 
services block grant, the largest Federal program for adult 
protective services, is needed in fiscal year 2004.
    And on behalf of our National Committee for Prevention of 
Elder Abuse and the 192 members of the Elder Justice 
Commission, let us pass the Elder Justice Act, the most 
comprehensive legislation ever proposed. this bill has many 
important provisions dealing with financial abuse, such as a 
dedicated funding stream for adult protective services, 
creation of an elder abuse resource center to collect data and 
information on financial abuse and exploitation, support for 
multidisciplinary training to better recognize signs of 
financial exploitation in our communities, and support to State 
and local prosecutors to provide backup resources and research 
to assist in prosecuting financial abuse and exploitation.
    Elder abuse is a growing public health, law enforcement, 
and social service crisis nationally, and very directly at the 
State and local level. We need a coherent and coordinated 
national policy to combat elder abuse, neglect, and 
exploitation as is called for in the Elder Justice Act.
    Policies today are too limited and reactionary. They must 
be proactive, comprehensive, culturally responsive, goal-
driven, and outcome-oriented. Federal policy must also 
recognize the many innovative and successful elder abuse 
prevention programs and strategies in effect today in local 
communities, including more use of multidisciplinary teams. I 
would like to insert in the record, Mr. Chairman, a report that 
just came out on multidisciplinary teams by the National Center 
on Elder Abuse.
    As the Elder Justice Act notes, the Federal Government has 
played an important role in the prevention of child abuse, 
domestic violence, and violence against women. We need to do 
the same with elder abuse. Federal policy is best when it helps 
those most vulnerable--in our Nation, there are few more 
vulnerable than elderly victims of abuse.
    Thank you very much.
    Senator Bond. Thank you very much, Mr. Blancato, and we 
will make the additional information available for the record.
    [The prepared statement of Mr. Blancato may be found in 
additional material.]
    Senator Bond. Mr. Hammond, I am going to introduce you and 
apologize. They have called for the vote, so I am going to go 
vote and come back and will turn the hearing gavel over to 
Senator Mikulski so that, for the convenience of our witnesses, 
we will try to keep the hearing going with as little disruption 
as possible. And I will look forward to reading your testimony 
and talking with you during the questions and answers.
    Thank you.
    Senator Mikulski [presiding]. Thank you very much, Mr. 
Chairman. While you dash, Mr. Hammond, we are going to ask you 
to present your testimony. We are so pleased that you have been 
elected to a 6-year term on the AARP Board of Directors, that 
you serve on the Maryland Commission on Aging, and the U.S. 
Attorneys' Health Care Fraud Task Force. You are quite an 
expert on fraud. You are a former teacher in Wicomico County, 
and we are looking forward to you teaching us a lesson or two 
about what we need to do to prevent elder fraud.
    So, sir, please proceed.

STATEMENT OF W. LEE HAMMOND, BOARD MEMBER, AMERICAN ASSOCIATION 
               OF RETIRED PERSONS, SALISBURY, MD

    Mr. Hammond. Thank you, Senator.
    I am Lee Hammond, a member of the AARP Board of Directors. 
AARP has long been engaged in efforts to deter financial fraud, 
the fastest-growing form of elder abuse.
    The many hurdles to successful prosecution of these crimes 
are getting the cases reported to law enforcement, having them 
thoroughly investigated, and attaining timely and appropriate 
prosecution.
    Financial exploitation has many disguises, causes, and 
forms of expression. But its common thread is an effort by 
unscrupulous persons to extract money and resources through a 
variety of devious means from unsuspecting and often vulnerable 
adults.
    The incidence and impact of exploitation are difficult to 
estimate because there is no national reporting mechanism, 
cases are not often reported, definitions vary, and the crimes 
are difficult to detect.
    In the 2000 survey of the National Association of Adult 
Protective Services Administrators for the National Center on 
Elder Abuse, financial abuse or exploitation comprised 13 
percent of the allegations of mistreatment that were 
investigated. Regardless of the amount of exploitation 
detected, virtually all observers agree, as the chairman 
indicated in his opening remarks, that much more happens than 
is brought to light, and any exploitation is too much.
    While numerous types of activities constitute elder 
financial abuse, all have the same characteristic--improper use 
of an older person's assets. But these activities go far beyond 
what most of us would consider merely ``improper.'' 
Perpetrators employ deceit, forgery, coercion, or undue 
influence for personal gain.
    AARP is addressing this problem through programs that 
educate members, families, professionals, and potential 
victims. Some AARP initiatives include the AARP Daily Money 
Management Program that helps older persons who are losing 
their ability to handle financial affairs find someone to help 
them manage their money; financial education projects, which 
expand financial awareness and enable participants to evaluate 
the trustworthiness of supposed advisors and experts; Colorado 
Elder Watch, which protects older adults from the financial 
exploitation of telemarketers and other forms of identity theft 
scams.
    Attorney General Curran mentioned Project SAFE, where AARP 
joined with the Maryland Attorney General's Office, the 
Banker's Association, and the Department of Aging in a 
coalition to pass legislation which provided training and 
allowed banks to report, State officials to investigate and 
prosecute instances of financial exploitation.
    AARP Campaign Against Predatory Lending advocates 
legislative reform, pursues precedent-setting litigation, and 
offers education to older homeowners regarding what to watch 
for when borrowing against the equity in their homes.
    AARP Consumer Universities offer presentations by leading 
local experts on how to avoid being exploited in the financial 
marketplace, in one's home, or by false advisors.
    Legal clinics and attorney training seminars provide expert 
lawyers or housing counselors to examine loan applications to 
see if the owners may be exploited by the terms of the loan.
    Use of the AARP media, including ``The Bulletin'' and 
``AARP--The Magazine,'' enables many persons to be educated 
about financial exploitation through the featured articles.
    Research by the AARP Public Policy Institute on consumer 
financial and fraud issues includes deceptive or fraudulent 
pre-need funeral and burial arrangements, identity theft, and 
the regulation of home improvement contractors and sub-prime 
mortgage lending.
    AARP regards its multifaceted effort against the financial 
exploitation of older persons as a valuable way to equip 
consumers, families, professionals, and vulnerable elders to 
recognize signs of potential abuse. The goal is to enable them 
to detect, prevent, or intervene before financial crises arise.
    We make information about all of our programs, services, 
and research available online, in print media, or both.
    AARP appreciates this opportunity to share some of our 
financial abuse education and prevention activities with the 
committee and looks forward to working with you to pass 
legislation like Senate bill 333, the Elder Justice Act, to 
provide a comprehensive national approach to elder abuse 
prevention.
    Thank you.
    [The prepared statement of Mr. Hammond may be found in 
additional material.]
    Senator Mikulski. Thank you very much, Mr. Hammond, for 
that very comprehensive testimony. We know that you have 
summarized it very well, and it is appreciated.
    I have to leave for the vote, so I am going to temporarily 
recess the committee. Senator Bond will return and begin the 
questioning, and we will have a good conversation. Each of you 
comes at it from a different perspective, but this has been 
enormously instructive, and I think we can get our hands on 
this, and we do have some questions.
    Mr. Curran, one of the things that we want you to think 
about while we dash for a vote is that we are not talking about 
preempting, we are talking about partnership. The fact is that 
you are the cop on the beat and also, the ombudsmen are another 
form of the cop on the beat. The question becomes what is the 
best way to support efforts at the State and local level.
    I know the Elder Justice Act presents a framework, but I 
really want to be able to strengthen the State and locals. Mr. 
Chambers was prevented from terrible exploitation because of a 
vigilant apartment manager and then, the ability of a smart 
police force to put him right on TV, which immediately 
broadcast the alert and could tell the story. That was 
partnership at the local level. So that is what we want to look 
at--how can we strengthen the ombudsman. I think Mr. Blancato 
gave some excellent ideas as well.
    So that is going to be the line of questioning, which is 
how do we get the job done. With the Elder Justice Act, this is 
the time to make suggestions on how to make it more vigorous.
    You are right, Ms. Scott, and also Mr. Hammond, people are 
being mugged every day, but instead of walking down the street, 
they are now being mugged on the Internet, mugged on their 
telephones, and I think one of the most despicable is when you 
are exploited by your own family.
    So let us look at that. We got our hands on predatory 
lending; let us get our hands on these other predators.
    Now the committee stands in temporary recess subject to the 
call of the chair. So take a break, and we will be back in 5 
minutes.
    [Recess.]
    Senator Bond. If we could ask the witnesses to take their 
seats, we will reconvene the hearing. I apologize. It is a long 
way to go to get to the floor and vote, and I know that Senator 
Mikulski will be rejoining us, but I appreciate your patience 
in waiting for us.
    To begin the questions, Mr. Chambers, you worked very 
effectively. What kind of advice would you like to give to 
other seniors across the country if they find themselves being 
victimized?
    Mr. Chambers. I think the main thing is do not be stupid, 
the way I felt when I found out that I had been taken.
    I think that on the whole, probably, older people who are 
not used to being out among the people who are doing things and 
are busy get a little rusty on taking care of themselves, and 
that is the way I felt when I was taken.
    I would be interested to know exactly how many of the 40 
people who were victimized in my case were actually older 
people. I imagine most of them were. The ones that I was 
speaking of who live across the street in the assisted living 
quarters, I know that all of those people are older, and there 
are a number of older people in our building, I think that 
probably they were the ones who were victimized.
    Another thing, I believe that most of these people probably 
have more credit cards than they need. That seems to be open 
season for methods of getting information about older people 
and using it for criminal purposes.
    Senator Bond. Thank you, sir. I can imagine that most of 
those who were victimized were elderly, although I must tell 
you I have a son who just graduated from college, and the 
number of credit cards they push on college students and young 
people--it is not just the older people they are going after.
    Again, do you have any final advice for preventing it? It 
certainly sounds like you took reasonable care, but what would 
you say if somebody has a credit card question, or any advice 
on avoiding the problem? You at least called back and got some 
confirmation.
    Mr. Chambers. Yes, both to the Visa people, who are 
obviously very conscious of the type of fraud, and the police 
also. I was really impressed with the fact that the police 
department took hold of this thing and followed it all the way 
to the end. They were very cooperative.
    Senator Bond. I would guess probably one of the lessons to 
be learned--and maybe this is going too far--but if somebody 
calls and asks for credit card information over the telephone, 
your first instinct is to tell them ``No,'' even if there is a 
problem with your credit card; you can deal with that better 
than losing $2,700 to Western Union.
    General Curran, I am very interested in your discussion of 
the partnership. How would you describe the coordination, and 
what advice could you give us on assuring that the Federal 
Government works as good partners with the State and does not 
get in your way yet provides the kind of assistance that you 
need?
    Mr. Curran. Maybe one example might tell you where we think 
we could be of more help to a consumer. So many folks come to 
the Washington area from other areas. They move with their 
goods and possessions which are transported by moving van. They 
may in Missouri or California, for that matter, make an 
arrangement that the estimated moving costs are $10,000. When 
they arrive in Maryland, there was a concern sometime back 
that, ``Sorry, we made a low estimate; it is really $15,000, 
and the goods are on the moving van, and they are not going to 
be unloaded until we guarantee the $15,000.'' What does the 
person do at that time?
    There is a Federal law that would permit the Department of 
Transportation to see to it that, I believe it is no more than 
10 percent, can be charged over and above the estimate, which 
is fine if it were enforced. But the reality is that at 3 
o'clock in the afternoon, the trucks arrive there, you want to 
get unloaded, and they want $15,000. We cannot enforce that 
law. We have our own law, but on interstate carriers, we are 
prohibited.
    And there may well be some reason why every interstate 
carrier should not have to worry about 50 State laws, but I am 
simply telling you there is one example where perhaps, had we 
had concurrent jurisdiction, we could have been able, on he 
scene, as cops on the beat, to enforce the Federal law that 
permits no more than 10 percent over the estimate, which might 
be fair.
    That is just one example that I have seen happen because so 
many folks do move to this general area.
    Senator Bond. Specifically on elder abuse, how would you 
suggest we proceed with assisting you on the kinds of financial 
frauds like credit card fraud, having somebody accompanying an 
elderly person to the bank and getting them withdraw money--
what could we do that would be helpful at the Federal level?
    Mr. Curran. It really is a problem. Mr. Chambers might have 
been an exception. But as a class, the generation that Mr. 
Chambers comes from is, by and large, trusting; they believe 
people. They do not think they are being conned. It was a 
different generation, perhaps. Would that we were that way 
today, to be honest with you. But that is the fact of life. And 
many times, as a class, seniors are embarrassed--``I do not 
want to tell anybody that I made a fool of myself, because I do 
not want my daughter to know, or my son to know, or my other 
friend to know, because they might put me away.'' So it is a 
real problem.
    On the question of the banks, there was an example of 
Federal banking regulations that maybe the teller should not 
worry where I am going to take my money out--I may want to go 
and blow it on venture somewhere. It is my money, and my 
business. But maybe there should be some ability on these 
electronic transfers, when it is unusual, maybe someone should 
raise a question or at least be able to check it out to see if 
there is some need for adult protective services to look into 
the situation.
    As I said, in Maryland, we did have the cooperation not 
only of AARP, but the banks themselves understood--provided 
there was no liability on them for infringement on the privacy 
situation, and we gave them that immunity--but the banks did 
not want to cooperate because they did not want to see someone 
taken advantage of because they are frail.
    That is just something I would recommend--and enforcement 
and education. If you do the PSAs, public service 
announcements, if you do the senior centers, if the Visa 
cardholders themselves would do more alerts to their members. I 
am a Visa cardholder; maybe I should get information and be 
leery of disclosing this information. I mean, they send you a 
bill every month; they could certainly have an insert in there 
that says, ``Be more aware.'' That would be something that they 
could do.
    I noticed my Internet server on my home computer says, ``We 
will not be asking you for your ID or other personal 
information. Do not give this information to somebody who 
contacts you and purports to be needing it. We will not be 
asking you for that.'' So I thought that was good.
    Mr. Curran. Another thing I see--you mentioned your son--I 
do not think a week goes by--I know a month does not go by--
that at my house, there are not applications for credits. You 
have been preapproved, you have been preapproved.
    What can happen--and I know they are trying to solicit us 
for these cards--but what can happen is that mail can be taken 
by an unscrupulous person, and we have been concerned about all 
these applications filled in with the personal information. If 
they know I am not there, they can fill it in, and when the 
application comes back and the card comes back, they can still 
take the mail.
    I am just saying that by flooding the mailboxes of America 
with these applications, that also makes it a little bit easier 
for the bad guy to do bad things.
    Senator Bond. That is a concern I have, too, with the 
number of credit card applications that come in.
    Let me turn to Carol. You talked about a couple of 
examples, and I think one of the most tragic types of elder 
financial abuse is abuse committed by a family member.
    What percentage of abuse cases involve family members 
taking advantage of an elderly person? That really gets me. 
That one bothers me probably as much as anything.
    Ms. Scott. One more than needs to be.
    Senator Bond. Exactly.
    Ms. Scott. I do not know that we know that number, and that 
may be one of the----
    Senator Bond. Is it a frequent occurrence?
    Ms. Scott. It is a frequent occurrence, very frequent. One 
of the difficulties in any kind of elder abuse is the reporting 
of it and especially financial exploitation, that from State to 
State, the mechanism varies. And one thing that might be very 
helpful on a national level would be some of the provisions in 
the Elder Justice Act that will allow States to have some--for 
things to be more--what am I trying to say----
    Mr. Blancato. Better data collection.
    Ms. Scott [continuing]. Yes, better data collection; thank 
you. That will then tell us how big the problem is, because 
sometimes we need to know how big the problem is before we can 
work on it.
    And I will tell you, as far as families, it can be any 
family. It can be the most caring, loving family that takes 
advantage of people. One of the issues in the case I mentioned 
is the signing off on a durable power of attorney or, in a lot 
of cases, it is people putting other family members' names on 
checking accounts, thinking that they are doing the right 
thing. And I do not know what the answer is. Obviously, in some 
instances, it is good to have a second name on a checking 
account. So I am not sure what the answer is to protecting 
them.
    Senator Bond. I agree with Mr. Blancato and others who 
talked about the importance of the ombudsman, and you do play a 
significant role.
    What are the biggest obstacles that you face as an 
ombudsman in carrying out your responsibilities?
    Ms. Scott. We are struggling across the Nation to be able 
to have a presence in every facility. The examples of abuse and 
financial exploitation that we get, we do as much of an 
investigation as we can, but then we turn it over to another 
agency or organization. So it is the partnering that you were 
talking about with the attorney general that is so important 
that is sometimes lacking. It is police who do not think that 
crimes occur in nursing homes. It is prosecuting attorneys who 
are pretty overwhelmed already and are not interested in taking 
cases that are not hundreds of thousands of dollars. It is 
adult protective services that is stretched thin already 
providing protection, and they do not have the resources and 
the understanding and the education to know how to get into the 
banking world and figure out exactly what the scam is.
    So part of our frustration as ombudsmen is what do we do 
with this information, and what is that organization going to 
do with it.
    Senator Bond. I do not know if you were at one of the 
hearings that I held in Missouri--I think it was in Colombia--
but there was talking about the local law enforcement agencies 
had people specially trained in dealing with elder abuse, the 
whole range, and we were talking then about physical abuse as 
well as financial abuse. Is that reasonable commonplace around 
the State?
    Ms. Scott. No, and actually, I think that was in 
Springfield.
    Senator Bond. Springfield, okay.
    Ms. Scott. The Springfield police department does have a 
special unit, and to my knowledge, that is the one, and----
    Senator Bond. That is the only one.
    Ms. Scott [continuing]. Yes, and they have been trying to 
go around the State, and I do not know on a State to State 
basis--one of the things that, coming to national events and in 
our National Association of Ombudsman, we have an opportunity 
to hear about best practices. States are reinventing the wheel, 
not realizing that there is a best practice out there, and just 
like what is happening in Maryland, we in Missouri should be 
looking at some kind of----
    Senator Bond. I agree, and I think that obviously, these 
are things we need to know.
    Let me turn to Mr. Blancato. Ms. Scott touched on the fact 
that there are successful programs. Is there an effective means 
for sharing those successes? We are delighted to be able to 
hear that discussion here, but the successes not just of 
Maryland and Missouri but of the other States need to be shared 
with all 50 States. How is that being shared, and do you have 
some thoughts on particular State programs that we ought to be 
looking at?
    Mr. Blancato. First of all, Mr. Chairman, I would say that 
some of the information you asked for about data on percentages 
of family members and so on, we would be happy to supply for 
the record. There are some studies that have been done over 
time for the National Center on Elder Abuse, as well as some 
background materials for the Elder Justice Act, that address 
some of those concerns.
    Also, in terms of examining successful State programs, that 
work has also been done to some extent through the National 
Center on Elder Abuse.
    And also, one point that I tried to make in my testimony 
was that Title VII of The Older Americans Act----
    Senator Bond. To fund Ms. Scott.
    Mr. Blancato [continuing]. Well, that, and also the 
prevention programs, because through that progress--and I think 
that between now and when reauthorization takes place, if you 
did a focused hearing examining good programs that are existing 
at State and local levels using multidisciplinary teams, you 
would find the basis for supporting additional funding for 
prevention. You could support these programs and allow for them 
to be expanded, and from there, you could develop national 
models that could be used in those places that may not yet be 
there.
    On the issue of particular States, I do not have that 
information in front of me, but I think again, we can supply 
some specific examples for the record.
    Senator Bond. OK. Let me ask a final question before I turn 
it over to my colleague.
    Mr. Hammond. You have the ElderWatch Program in Colorado 
and other programs. What advice would you give us for educating 
the elderly, because I happen to agree with General Curran that 
education, if we can prevent the fraud and abuse in the first 
place, is best, but backed up by strong law enforcement is 
essential.
    What areas would you suggest we look to for good ideas?
    Mr. Hammond. Well, first of all, Senator, I would agree 
that education and enforcement are definitely key to working 
with this issue.
    In terms of education, the more information from good 
research that you can get out to the public, the better the 
public will be informed, the better they will be able to cope 
with some of these situations that occur. It is awfully 
difficult to get to some of our senior citizens who do not go 
out, who do not have comfort of people coming in to talk with 
them each day. And sometimes when they get these phone calls or 
these knocks on the door, they welcome them as simply a face to 
talk to, someone to see. So I think they need to be aware, the 
people who are responsible for their care need to be aware of 
some of the things that could happen.
    We provide this kind of information from our research in 
our publications, so as I said, I think the more information 
that we can get out to these folks, the better off we are going 
to be.
    We can do that in a number of ways, not simply by one 
organization doing it, but by working with other organizations 
in communities. Our States have been very effective through 
their State offices in working with other organizations in 
local communities to develop the kinds of education programs 
that will alert seniors and others of these kinds of efforts.
    Senator Bond. Thank you very much, Mr. Hammond.
    Now, I am happy to turn the questioning over to Senator 
Mikulski.
    Senator Mikulski. Thank you very much.
    Mr. Chambers, a question for you, sir. You said that when 
you had the Visa scheme, the very next day, you had an alert at 
your apartment.
    Mr. Chambers. Yes.
    Senator Mikulski. You had a fantastic resident manager. 
Could you tell me where you live? Is she part of a network? Is 
this senior housing? Is this private sector, and she is just as 
sharp as a tack? Because you obviously are a paperwork guy, you 
knew how to get in right away and protect yourself. You already 
asked for verification of identity, etc. Tell me about this 
apartment manager. She really was another cop on the beat 
there, or at least part of the auxiliary force.
    Mr. Chambers. Yes, she is sharp; there is no doubt about 
that. The reason she happened to get out this alert was because 
some of the people had been scammed before I was and had 
reported to her. She is the sort of person who everybody looks 
up to in the building, because she is fairly familiar with what 
is going on and makes sure that she is.
    Senator Mikulski. I understand. So this is a private sector 
building; this is not housing for the elderly?
    Mr. Chambers. That is right. This is a condo with 175 
apartments, and she ran this thing off on the machine and 
distributed it to every person in the building.
    Senator Mikulski. Thank you very much, Mr. Chambers.
    Senator Bond, in terms of techniques, one would be how we 
could use housing for the elderly services over at HUD, because 
the resident managers interact every single day, and that would 
be a very important way to go.
    Attorney General Curran, first of all, your work on SAFE is 
great, and what we like are the partnerships that you have with 
the banking industry, with the service providers, and so on.
    Utah is different than Maryland, rural is different urban 
even in the way we can all communicate. Do you have thoughts 
and recommendations on how we could be working, with the 
attorneys general, with the Commission on Aging? I think Bob 
Blancato has talked about Departments on Aging--do you have 
thoughts on that? It is not about preemption and are we 
preempting. This is going on internationally--we were very 
troubled to hear about Canada. This scheme against Mr. Chambers 
came out of Miami. And you prosecuted in Kansas, and you were 
in on it in Maryland.
    Mr. Curran. Yes. The people who are dealing in these scams 
are not longer committing just street crime. The sweepstakes, 
which were national mailings, we learned about by simply 
asking--over in Montgomery County, I went to a senior center 
and asked would you work with us and, for the next 1 month, 
keep your mail and let me see who is mailing you letters, and 
surprisingly, we had--with the exception of personal 
information, cards and things--thousands and thousands of 
pieces of junk mail from just one senior center, and then we 
were able to identify who was actually mailing people the 
solicitations.
    Senator Mikulski. But how can we help you reduce consumer 
fraud among the elderly?
    Mr. Curran. Beefing up our enforcement--with the Medicaid 
fraud units that all States have, there is an elder abuse 
section that we are able to get. Now, I am happy to say from a 
budget standpoint that the bulk of the money that our Medicaid 
fraud units get is about 75 percent federally-funded--just 
making sure that continues, because that is where we do get 
into elder abuse. Also, the ability to give grants to have 
consumer protection units continue to do proactive education.
    I am happy to say in answer to an earlier question that was 
posed to me that there now is a website, because even seniors 
are now getting into----
    Senator Mikulski. A website for whom, from where?
    Mr. Curran. A website for seniors dealing with--actually, 
it is in my statement----
    Senator Mikulski. Do you mean your website?
    Mr. Curran. No. It is a national--Senior Investor Resource 
Center, promulgated by all of the securities commissioners 
across the Nation--it just started last month--in which seniors 
can go to the website and see where the investment scams are, 
get common sense investment information. It just started up 
last month, and we are very proud of that.
    Senator Mikulski. Thank you. I think those are excellent 
ideas. Again, going back now to Mr. Blancato for a minute, and 
then to wrap up, thank you. I think that shows how we could 
build on Medicaid, and not be creating new trade routes for 
funds but enhancing, and we want to talk to Ms. Scott as well.
    And what is so great, Senator Bond, is that now at our 
senior centers, there are so many people wanting technology, 
the kind of website news you can use. We have to give help to 
those people who practice self-help. Ultimately, the most 
important consumer protector is you of yourself, as long as you 
are mentally competent.
    Mr. Blancato, I am not going ask you to elaborate; you gave 
us excellent ideas on the Social Security block grants and 
others.
    Let me go to Ms. Scott. You talked about another problem, 
and that is family members. What a despicable situation. A 
bunch of techno-thugs operating out of Canada is one thing, but 
when it is your own niece or nephew--can you see where that 
protection comes through the long-term care ombudsman, because 
many people are in facilities?
    Ms. Scott. Certainly we would be one of the sources that 
would notice something or be enough of a friend that an older 
person or disabled person would confide in us.
    What happens after that is what is the Elder Justice Act is 
all about, and that is getting prosecutors and law enforcement 
and Medicaid fraud units to be willing enough to take those 
cases.
    In Missouri, we have a law that says if you are responsible 
for the finances of an elder person who is in a nursing home 
that it can be a felony if you divert that money and do not pay 
the nursing home. But I am not sure that that is a law in other 
States. And we have difficulty in Missouri getting the 
prosecutors to pick up that case and run with it.
    Senator Mikulski. But you know that where there is focus, 
enormously significant things happen.
    Senator Bond and I were involved in dealing with predatory 
lending, and he was very gracious to lend his support to what 
was going on in Maryland--the so-called flipping. In 3 years, 
thanks to a lot of hard work between local prosecutors and the 
work of the Attorney General, we just announced that we have 
reduced it in Baltimore by 82 percent.
    Senator Bond. That is great. Good job.
    Senator Mikulski. But you know, one of the biggest 
deterrents is if they think they are going to go to jail--and 
also, in the course of the trials, they give tips.
    So that strengthening the ombudsman program in the Elder 
Justice Act will really do what you are looking for; is that 
correct?
    Ms. Scott. I believe so. I think one of the key points is 
that the ombudsman program is only as strong as our presence in 
the facilities, and if anyone is vulnerable, it is someone who 
may be in the beginning stages of dementia or on into 
Alzheimer's or some other disease, who cannot protect himself 
or herself and who is relying not only on their medical care 
from someone else but to handle all of their finances. If we 
are not there, assisting families in understanding where they 
can go, then we become the family for that resident; and if we 
are not in every facility on a regular basis, then who is 
there?
    Senator Mikulski. But I think technology can be our tool. 
You are there, and you are important to this, but also flagging 
transactions that seem abnormally erratic or frequent or 
whatever.
    Ms. Scott. Yes. I am excited to hear stories about how the 
banking industry is opening up and allowing their employees to 
report things.
    Senator Mikulski. Well, we could not have fought predatory 
lending without the help of the banking industry.
    I have one question for Mr. Hammond. First of all, the AARP 
does a fantastic job of educating, and we thank them--``The 
Bulletin'' with its consumer tips is, again, ``news you can 
use.'' But you had some innovative ideas, Mr. Hammond, and one 
was the Consumer University. I saw that you had one down on the 
shore, our beloved Eastern Shore, the first week in October. 
How did that turn out? Could you tell us what went on there; 
was it well-attended; did people feel empowered by it?
    Mr. Hammond. Yes, Senator. It turned out very well, as have 
all of the Consumer Universities that we have hosted. We have 
had them throughout the State of Maryland and in many other 
States across the Nation. It was well-attended. There were tips 
on economics, tips on predatory lending, all of the consumer 
kinds of activities that people need to be aware of.
    Senator Mikulski. About how many people came?
    Mr. Hammond. I am not exactly sure of Salisbury, but I 
would expect it would be in the neighborhood of 250 to 300, 
somewhere in that range.
    Senator Mikulski. In a rural area, that is a pretty good 
turnout.
    Senator Bond. Absolutely.
    Mr. Hammond. Yes, it is.
    Senator Mikulski. We could be running these through county 
offices on aging and say this is going to be your Consumer 
University, not only to prevent fraud but picking a nursing 
home. My dad had Alzheimer's, and we had to turn to long-term 
care, but I knew how to work with my mother to select that. 
When I bought my long-term care insurance, we worked through 
the National Association of Insurance Commissioners, which had 
the seven things you do to scrutinize that. So this could be 
dealt with.
    I think this idea of a Consumer University, where you do it 
once a year, and it is a one-stop shop where you can come and 
get a lot of tips on how to pick out assisted living. As you 
know, where there is need, there is often greed. So I think you 
have given us a very creative idea.
    Mr. Hammond. Senator, I do have to mention that we could 
not do this without our network of AARP volunteers. There are 
hundreds of them in the State and thousands of them across the 
Nation who really make these successful.
    Senator Mikulski. That sounds just great.
    And Mr. Blancato, we know from when he served in other 
administrations on aging. This is very practical, and your list 
just speaks for itself, but we want to thank you for your 
commitment and that fact that we have this national coalition, 
and we will be turning to you.
    I think they have answered my questions, Senator Bond, and 
I think we have a good direction.
    Senator Bond. I just have one question that is kind of 
nagging at me. Ms. Scott has talked about working in the 
institutions, and I know there are senior institutions, there 
are subsidized and nonsubsidized senior institutions. I have a 
lot of neighbors who are in small towns in rural Missouri, who 
were friends of my parents, and they have taken great pride in 
saving enough so they can be independent. And it strikes me--to 
what extent are you able or are others able to find out if 
somebody is targeting them, because they are trying to live on 
their own, they have saved some money--like Mr. Chambers and 
his neighbors--they are the ones who would be the target. They 
are trying to make it on their own, and if they get wiped out, 
that is particularly devastating to them. They are trying to 
live on their own, and they are the targets.
    How well are we doing getting the information out and 
finding out about problems that may occur with those elderly 
trying to live on their own?
    Ms. Scott. One way I could answer that is that when a 
person has been living on his or her own and then needs to move 
into a long-term care facility, and that is when they start 
asking questions about how much money do you have and how are 
you going to pay for your stay, we are finding more and more 
cases where people say, ``Well, I have this money, but now I do 
not have it, and I do not know where it went.'' And Medicaid 
will not start coverage if you have given away your money, so 
we have had to go in on our hands and knees and say, ``Look, 
this guy has been exploited, and that is why he does not have 
his money.''
    Senator Bond. Yes, those are the ones--how do you deal with 
that, because by the time they wind up there, saying, ``I have 
lost all my money,'' and somebody has defrauded them--then they 
show up, and they are totally devastated. That is worrisome.
    Ms. Scott. It is, and I cannot tell you a number, again, 
because I think one of the reports shows that only one in 14 
financial exploitation cases are even report.
    Senator Bond. Yes. We have one in five, but clearly, as the 
attorney general said, a lot of people do not want to comment 
on it.
    Let me turn to Mr. Hammond and Mr. Blancato and ask if they 
have thoughts on that.
    Mr. Blancato. I am not sure that I have anything else to 
add to this, except that you talked about people living alone, 
before they become institutionalized, and I think one thing 
that the subcommittee may want to look at is the emergence of 
gatekeeper programs around the country, where teams involved in 
elder abuse prevention are helping to train folks who come into 
contact with people living alone--the home-delivered meals 
folks, meter readers and people who give them gas services, and 
so on--who can do some assessment and give some information 
back if something unusual is going on with someone who is 
living alone, and they can report that information. Those small 
things are helpful in terms of maybe catching something before 
it goes too far along.
    Senator Bond. Mr. Hammond, any thoughts?
    Mr. Hammond. I would agree that those are the kinds of 
things that we need to have more of, and I think more of the 
grassroots activities, the kinds of things that are in local 
communities that people can partner with organizations to make 
sure that frail adults have some kind of contact and are 
checked on a regular basis.
    Senator Bond. I am not even sure it is frail adults.
    Mr. Hammond. That is true.
    Senator Bond. Certainly there are lots of challenges ahead. 
Your testimony has been very helpful today. We appreciate the 
information that you have provided us and the great work that 
you are doing.
    Mr. Chambers, you are our ``poster boy'' of the guy who 
took some action and helped bring it all to a halt. We are 
extremely proud of you, and we thank all the other witnesses 
for the work that you are doing and for the prod that you have 
given us to get moving on the Elder Justice Act.
    Senator Mikulski. Excellent.
    Senator Bond. With that, the hearing is adjourned.
    Thank you.
    [Additional material follows.]

                          ADDITIONAL MATERIAL

              Prepared Statement of J. Joseph Curran, Jr.
    Chairman Bond, Ranking Member Mikulski and Members of the 
Subcommittee, on behalf of Maryland's elderly citizens, I thank you for 
inviting me to testify today regarding the issues that elderly 
consumers face in today's investment marketplace. I am testifying today 
in my capacity as Attorney General for the State of Maryland. I was 
asked to share with you some of the law enforcement cases that have 
been brought by my office over the last few years and how my office was 
able to assist seniors who were harmed by the businesses that were the 
targets of these cases.
    As the Attorney General for Maryland, I hear countless stories of 
financial abuse against seniors ranging from bogus investment products, 
to high pressure telemarketers, to shady investment advisers and 
stockbrokers. My office criminally prosecutes companies and individuals 
who commit crimes against seniors, brings civil law enforcement actions 
for injunctions, restitution and penalties against companies and 
individuals who commit securities fraud and unfair and deceptive trade 
practices, and seeks to educate seniors through publications and 
seminars so that they may be better able to protect themselves.
    In recent years, my office has brought a number of cases that 
involve businesses that cheated seniors who were purchasing financial 
products and investment advice. These cases are particularly egregious 
because seniors, like many other consumers, rely heavily on others to 
provide them with accurate and truthful information about their 
financial and investment options.
    One of the cases recently brought by my office involved a Maryland 
business owner, Rodney Hinkle, and his companies Money Systems, LLC and 
Energy Resources, Inc. Mr. Hinkle was well-known for hosting lavish 
all-expense paid dinner financial seminars at local hotels and 
restaurants. Holding himself out as a legitimate investment adviser, he 
used those events to pitch investments in his own companies.
    Unfortunately, rather than running a legitimate business, Mr. 
Hinkle pooled the investment monies and paid off earlier investors with 
subsequent investors' monies--a classic Ponzi scheme. Among Mr. 
Hinkle's many victims was one of his ``clients,'' a widow who entrusted 
him to make her financial decisions after her husband died. Mr. Hinkle 
fleeced the woman of over $300,000--the proceeds of her husband's life 
insurance policy. My office brought an action to shut down Mr. Hinkle's 
activities and bar him from the securities and investment advisory 
business.
    Earlier this year, my office settled a case involving another 
investment adviser named Steven Yarn. Mr. Yarn had befriended an 84-
year-old woman who did not have any immediate family. As the woman's 
health began to fail, Mr. Yarn took over her financial and legal 
affairs. He found a lawyer to revise her will and had himself named as 
co-executor of her estate. Upon her death, she directed her assets to 
be transferred into a foundation that would donate to various 
charities. Over the years, Mr. Yarn transferred for his own use nearly 
$200,000 of the woman's money, half of which came from the foundation 
after the woman's death. Our settlement requires Mr. Yarn to pay the 
funds back to the foundation and keeps him out of the investment 
advisory business until he has completed those payments.
    Two other recent cases brought by my office involve two Baltimore 
businesses, Answer Care, Inc. and Beneficial Assistance, Inc. The 
companies sold viatical settlement contracts--investments in the 
proceeds of another person's life insurance policy--to hundreds of 
investors. Salespeople pitched these investments as ``guaranteed'' and 
``safe'' investments--an impossible promise when one is betting on when 
the insured person will die in order for the investment to ``mature'' 
and pay off. Millions of dollars were lost including the $12,000 life 
savings of a retired school teacher who invested with Answer Care. A 
few weeks after making the investment, she began to worry and called 
our office. Unfortunately she didn't call us before she made the 
investment. Our action froze Answer Care's assets and set up a 
receivership to distribute those assets to defrauded investors, who 
hope to receive a maximum of 25 cents on their investment dollars.
    We recently settled a case against another investment advisory firm 
that had borrowed $350,000 from one of their clients, an 89-year-old 
widow and retired schoolteacher. We were able to negotiate the return 
of the borrowed funds, and the firm agreed never to borrow funds again 
from their clients. Despite that experience and our warnings, we fear 
that this woman might be a victim of another fraudulent investment 
scam.
    In another disturbing case, a stockbroker with a reputable firm 
churned the account of a retired elderly couple who were taking care of 
their mentally disabled adult child. They wanted to protect and 
preserve their savings to use for their child's future care. The 
stockbroker's malfeasance caused nearly $500,000 in losses including 
more than $300,000 in commissions paid to him. Our office was able to 
negotiate a settlement that returned the funds to the victims and 
barred the stockbroker from doing business in Maryland.
    In a similar vein, my office settled a case with another large 
brokerage firm for the unlawful activities of one of its stockbrokers, 
Monica Coleman. Ms. Coleman devised an investment scheme that defrauded 
her brokerage clients when she sold them securities in her own company. 
Since convicted of securities fraud in our criminal action, Ms. Coleman 
promised one of her victims--a 70-year-old retiree--to quadruple her 
monthly income. Instead of keeping her promise, Ms. Coleman 
misappropriated $103,000, the woman's lump sum retirement payment. My 
office was able to negotiate a settlement in which the brokerage firm 
paid the victims nearly 50 percent of their losses and agreed to 
remedial supervisory procedures.
    Our actions aren't limited to local defendants. In a recent case 
involving a New York telemarketing boiler room operation, my office was 
able to negotiate the return of some of a Maryland retiree's lost life 
savings and bar the offending brokers and their firm. The glib 
telemarketers promised handsome, tax-free profits and convinced the 
investor to liquidate his retirement accounts--money that had been 
conservatively invested in well-performing funds. The telemarketed 
investments, including a promissory note paying above market interest 
and stock in highly speculative or non-existent companies, were 
fraudulent.
    My office, in conjunction with Attorneys General from around the 
country, has been involved in a number of investigations of sweepstakes 
companies, which often prey on seniors by convincing them to purchase 
unwanted magazine subscriptions and other products based on a false 
impression that the purchases will increase their odds of winning. One 
settlement, which involved Publishers Clearing House, resulted in 
refunds of more than $700,000 to more than 3,200 Maryland consumers. In 
another settlement, United States Purchasing Exchange paid $608,000 in 
refunds to 886 Maryland consumers.
    Another initiative that we have undertaken along with State 
securities administrators from around the country is a Senior Outreach 
program that is designed to educate seniors to protect themselves from 
investment fraud. Included in this outreach program is a new website 
launched last month--the Senior Investor Resource Center 
(www.nasaa.org/nasaa/sirc/sirc.asp)--that is designed specifically for 
senior audiences. The website includes: a checklist of questions 
seniors should ask before making an investment decision; common sense 
solutions to protect assets from investment fraud; and information 
about the current top frauds targeting seniors.
    These are dangerous times for seniors. The volatile stock markets, 
record low interest rates, rising health care costs, and increasing 
life expectancy all have combined to create the perfect storm for 
investment fraud against senior investors. The fear that they will be 
unable to meet their financial needs and will outlive their money makes 
seniors even more vulnerable to con artists who specifically target 
seniors and prey on those fears. The States, through their securities 
regulators--the local cops on the securities beat--have a long history 
of protecting all investors through financial education and rigorous 
enforcement of investor protection laws.
    To continue to protect our investors, it is critical that the 
States' ability to pursue fraudulent activity not be compromised by 
provisions such as those contained in H.R. 2179, The Securities Fraud 
Deterrence and Investor Restitution Act of 2003, which is being 
considered by the House Financial Services Committee. As currently 
written, that bill would restrict my office and other State securities 
regulators from taking the day-to-day actions that protect all of our 
investors by preventing us from imposing requirements as part of 
enforcement, licensing or other regulatory proceedings that go beyond 
Federal requirements. Given the rampant financial abuse of seniors, 
this is not the time to handcuff the local securities cops.
    This subcommittee's examination of such abuse should be applauded. 
My office and other State Attorneys General will continue to play an 
active role in protecting seniors. I thank the Chairman and each member 
of this subcommittee for allowing me the opportunity to appear today 
and give my testimony.
                   Prepared Statement of Carol Scott
    Thank you for inviting me to speak on the very important topic of 
financial abuse. I want to congratulate you for focusing on Elder Abuse 
and for being among the leaders of the effort to get people off their 
rockers and do something to help older Americans who are being abused, 
neglected and exploited. Each year many elderly and disabled American's 
are taken advantage of, and their health, security and sometimes their 
lives are cut short because of the actions or inactions of others.
    As a long-term care Ombudsman, I am one of 10,000 people from 
across the country who is trained to advocate on behalf of residents of 
long-term care facilities. These 10,000 people are staff and volunteers 
who visit nursing homes and board and care facilities and listen to the 
issues, complaints and questions of residents, their friends and 
families.
    In addition to individual advocacy, it is also the job of each of 
the 52 state LTC Ombudsmen to ensure that policy makers are aware of 
places in the ``system'' where improvements are needed.
    Well, here I am, representing not only the Missouri LTCOP, but also 
the National Association of State Long-Term Care Ombudsman Programs 
(NASOP). NASOP is a founding member of the Elder Justice Coalition, 
which is committed to ending elder abuse.
    Financial abuse is devastating. Whether the elderly victim is aware 
of the exploitation or not, it is frustrating that sometimes the 
perpetrator can get away with taking money and other assets from 
vulnerable individuals.
    Perpetrators can be family members, friends, healthcare 
professionals or con men (and women). We need to act now. Legislation 
before this Congress (S.333 and H.R. 2490) will put into place needed 
training, data collection, legal assistance, investigative assistance, 
and ``beefing'' up of the Adult Protective Services programs across the 
country, as well as assisting law enforcement, prosecutors and judges.
    I want to tell you about two Missouri cases that exemplify the 
growing crisis. ``Mary'' is a 91 year-old resident of a nursing home. 
She is mentally competent and is living in the facility because her 
Durable Power of Attorney (DPOA) took her to the facility to visit, and 
just left her there. Mary was afraid to object to this action.
    Mary owns several farms and two homes. The local ombudsman was 
informed that one of Mary's farms and many of her household items had 
been sold and that Mary was not aware of this. The Ombudsman visited 
Mary and asked if she knew that one of the farms had been sold. ``How 
could he do that?'' Mary was very upset and requested the Ombudsman's 
help. The person selling the property had Mary's Durable Power of 
Attorney, which she signed when she was in the hospital and very ill. 
She does not remember signing the document, and said she certainly had 
no intention of ever allowing someone to sell her property without her 
knowledge and permission.
    The Ombudsman assisted Mary in getting an attorney, and in 
repealing the DPOA document. In the meantime, 250 acres of land has 
been sold and many household items are gone forever. The announcement 
of the auction of the household items did not list Mary as the owner of 
the property, because the DPOA ``didn't want her to be upset.''
    The second case: In-home aide stole money from three clients. The 
aide took $900 from one client. The case was referred for prosecution 
and she plead guilty to charges of Class C felony, forgery and Class C 
felony, stealing. She also has been placed on the Employee 
Disqualification List for 5 years, which prevents the aide from working 
in the in-home agency or nursing facility industry.
    These two cases demonstrate that the elderly can be exploited by 
anyone that has access to them. Whether by intimidation or out right 
stealing, something must be done to make it easier for people to report 
crimes, something that will assist with the coordination of the 
investigations between Adult Protective Services, the LTC Ombudsmen, 
Nursing Home Licensing staff, law enforcement and district attorneys, 
and something that will ensure equity and making sure there is justice 
for all, no matter how small the amount of money taken.
    There are many groups and organizations in the ``aging network,'' 
from the National Association of State Units on Aging (NASUA) to AARP, 
to local senior centers and long-term care Ombudsmen. Stopping abuse 
will take more than this network. It will take regular citizens asking 
questions; courts that are prepared to hear cases, and a better 
understanding of who can become a victim. The Elder Justice Act will 
provide federal resources to support State and community efforts on the 
front lines, to those dedicated to fighting elder abuse with scarce 
resources and fragmented systems. And maybe more importantly, this Act 
will bring national attention to the issue of abuse, neglect and 
financial exploitation.
    The time for the Elder Justice Act is NOW. Senator Bond, you just 
completed a tour of Missouri where you said that Congress had its first 
hearing on this topic almost 30 years ago. I join you in declaring that 
the time is now. I believe that it is now time for Congress, elder 
Americans and elder advocates to ``get off our rockers'' and get the 
job done. Senator Bond, Senator Mikulski, the Elder Justice Act is a 
fine piece of legislation. Please don't allow another year to pass 
without its passage. Thank you again for this opportunity for me to get 
off my rocker and make a difference.
    Additional cases from Missouri Department of Health and Senior 
Services
    CASE 1. A terminally ill, elderly adult was in the nursing home. In 
1992 she had given her niece a Power of Attorney (POA) and put her name 
on her bank account--the niece had never used the account until the 
reported adult went to nursing home. The nursing home bill became over 
$30,000.00 and pharmacy was owed over $2,000.00 in co-payments alone. 
The pharmacy refused to send more medications. The niece did send some 
nominal amounts of money towards the bills. The reported adult's 
monthly income was almost $1,200.00. Law enforcement obtained an 
investigative subpoena which showed the niece had taken over 
$60,000.00. She was cashing out the account at the beginning of every 
month and had purchased new house and furniture, jewelry, clothes, etc. 
Meanwhile, the reported adult had no personal funds, and received no 
new items for over a year. The nursing home staff took up a collection 
so she could have a perm and the administrator paid, out of her own 
pocket, for her medications one month. All of this was presented to the 
prosecutor who ultimately decided that because the niece had POA he 
could not prosecute.
    CASE 2. An In-home Services aide allegedly stole $700. Upon 
Department of Health and Senior Services (DHSS) investigation the 
provider paid the client back $200 (as the aid admitted to stealing 
this amount). However, when the case went to court, the court ordered 
the aide to pay the full amount back. The client died before the court 
order. However, the court still ordered that the money go to the 
family. The family obtained a total of $900.
    CASE 3. Our client is a 38 y/o white female with Spinal Bifida who 
is wheelchair bound. She is also diagnosed with borderline Mental 
Retardation. While living in a nursing home, she was befriended by an 
aide who was working there. The aide introduced her 82-year-old 
grandfather to our client. Our client was 30 years old when they 
married shortly thereafter. When the elderly man died, the aide/step-
granddaughter moved our client into her home with her and her husband. 
The aide/step-granddaughter became our client's payee for her $724/mo 
SSI income. During the approximately 8 months that our client lived 
with this couple, they got our client to put their telephone in her 
name and did not pay the bill. They ``let'' our client buy a $1,800 
computer as a gift for the step-granddaughter's spouse. The only 
purchases the payee made for our client that she can provide evidence 
for are 2 skirts and 3-4 tops. When our client's sister became 
convinced that the couple was not looking out for our client's best 
interests, she took our client out of the payee's home. Our client did 
not have any money from her checks, which had been saved in her name. 
The only possessions that our client had were a television set that was 
sold by the caregiver family, and an electric wheelchair that had been 
delivered to their home while our client lived there. The wheelchair 
could not be found but our client still owes on the bill for it. There 
is also evidence of physical neglect, along with adult abuse. This case 
has been reviewed by Legal Services who stated that we have enough to 
take before a judge. We are going to pursue a case of Adult Abuse 
against the payee/caregiver.
    CASE 4. The grandchildren allegedly charged $327.79 to a mail order 
catalog under the client's name. Upon DHSS investigation grandchildren 
agreed to pay what they had charged, and the catalog agreed to clear 
the client's credit with them. Law enforcement was notified. However, 
the client elected not to prosecute as the grandchildren repaid the 
amount and promised not to this again. To this date, we have not been 
notified that the grandchildren have tried anything like this.
    CASE 5. In February 2003 DHSS received a report of theft and 
financial exploitation on a client. The Client lived with her sister 
and both received around the clock care from privately paid caregivers, 
Mrs. S and her daughter, Ms. J. The daughter had been working for the 
two sisters approximately 6 months when she obtained Power of Attorney. 
She wasted no time in depleting the shared accounts of the client, the 
sister and the niece.
    An employee at the local bank noticed rapidly depleting funds, 
including cashing of CD's and checks written for large sums of money, 
since Ms. J became POA. The bank employee reported her concerns to the 
niece. An investigation from the county Sheriff's Office ensued. The 
financial exploitation totaled approximately $400,000.
    Ms. J received a suspended imposition of sentence, 5 yrs 
unsupervised probation, and she was ordered to pay restitution. Two 
savings accounts established by Ms. J were frozen. The money was 
returned to the client, her sister and niece.
    Property purchased by Ms. J was seized, including two homes in a 
neighboring county and two vehicles. Our staff recently contacted the 
niece to see if she had been satisfied with the legal outcome. She said 
she was satisfied and that most of the assets had been recovered. The 
niece's stepdaughter is now involved in over seeing her and her 
mother's financial affairs. The client passed away in November 2002.
    CASE 6. DHSS received a hotline report in October alleging a 
client's son was not giving the client her medicine correctly and had 
financially exploited her. An investigation was completed and a report 
made to the police. Evidence was found that the son had put his name on 
all the client's money, and had used Power Of Attorney papers to 
withdraw large amounts of money from the client's accounts. The client 
had assets of approximately a half million dollars. The son was charged 
and convicted of stealing. He did plead guilty and was placed on 
probation. He also received one-week ``shock time'' in jail and must 
pay restitution of $1,000.
    CASE 7. DHSS received hotline on 74-year-old client who was being 
exploited by her daughter and namesake. The daughter was using her 
mother's name to cash in on her mother's stocks, deplete her mother's 
bank accounts and then forged both her mother and brother's names on 
stock certificates. She has stolen to date, $14,512 in cash of the 
client's life savings, depleted $32,637 in the bank accounts and 
attempted to cash in on 400 shares of stock from her brother and 
mother. The stock company became suspicious of the signatures on the 
stock certificate. They stopped her cashing the stock that would have 
been close to $50,000 in value. Currently, a plea is on the table. 
Charges being brought against her are Financial Exploitation of the 
Elderly and Forgery. These are both felony crimes.
    The prosecutor's terms are:
    A guilty plea to both felony Financial Exploitation and Forgery 
charges
    Serve 5 yrs supervised probation under a Suspended Imposition of 
Sentence (SIS)
    Pay full restitution to the victim ($14,512) and,
    No further employment or dealings with the elderly & disabled.
    The prosecutor has advised that he will accept nothing less. The 
Defendant has until Monday September 15, 2003 to make her decision. If 
she refuses, then we will re-indict and go to trial.
    CASE 8. DHSS worked in collaboration with the FBI. This case 
involved a suspect who was a financial planner, insurance salesman and 
con artist. He convinced three individuals to ``loan'' him money. One 
victim, 93 years old, ``loaned'' him $306,000. The loan note that the 
perpetrator prepared indicated ``0% interest, payable in full upon the 
death'' of the client. The perpetrator had also done what is called 
``churning'' which is where he convinces clients to move from one 
Annuity Company to another, each time costing the client a penalty for 
early withdrawal and he would make a commission. He then ``borrowed'' 
$37,000 from another victim. Both of these clients are elderly. He 
completed the same scam with one of the client's sons, unbeknownst to 
the client, for an amount of $20,000.
    DHSS received this case from the local Prosecuting Attorney's 
office and discovered that it was better to bring in a federal agency. 
The DHSS report is four volumes thick and includes over 3,000 exhibits. 
After taking the case to the FBI, the US Attorney's office, based on 
everything we had, agreed to indict the perpetrator on numerous mail 
fraud and banking fraud charges.
    The perpetrator's attorneys felt that the potential case was so 
great against their client that they have agreed to plead guilty on the 
information and forego a formal indictment. He has agreed to the 
following conditions:
    1. Plead guilty to the felony charges of Bank Fraud and Mail Fraud
    2. Pay directly to the victims the following amounts: NOTE: Checks 
are already being written to victims
    a) client 1--$338,326.00 (includes penalties for early withdrawals)
    b) client 2--$37,000.00
    c) son of client 2--$20,000.00
This is a total recovery for the victims in the amount of $395,326.00
    3. Forfeit any and all licenses to sell annuities, securities and/
or insurance.
    4. Placed on Probation for a period to be determined by the judge.
    This is a great victory for us. It shows what can happen when DHSS 
works collaboratively with other state and federal agencies. In this 
case, we were actually able to recover all of the losses to the 
victims. The perpetrator won't spend time in jail, but he is out of the 
business. Also, our case does not preclude the IRS from initiating 
their own case, since he hasn't paid taxes in over 12 years! Bottom 
line, the Feds are willing to work with us and we can be successful.

                Prepared Statement of Robert B. Blancato
    Chairman Bond, Senator Mikulski and other members of the 
Subcommittee: My name is Bob Blancato and I present testimony as 
President of the National Committee for the Prevention of Elder Abuse 
(NCPEA). We are the largest interdisciplinary membership organization 
focused on elder abuse prevention through research, advocacy, public 
awareness and training.
    I also serve as National Coordinator of the Elder Justice 
Coalition, a bi-partisan group of 190 national, state and local 
organizations as well as individuals working with you and your 
colleagues in the Senate and House to gain passage of S. 333 and H.R. 
2490, the Elder Justice Act. I am pleased to note that both Chairman 
Bond and Ranking Member Mikulski are co-sponsors of this landmark bill.
    I, and so many others involved in the national effort to combat 
elder abuse, commend this Subcommittee for holding this hearing on a 
growing and especially debilitating form of elder abuse: financial 
abuse and exploitation.
    The introduction of a 1999 report for the National Center on Elder 
Abuse presents the problem quite explicitly: ``Losing the fruits of a 
lifetime's labor through financial exploitation can be devastating. It 
may compromise victims' independence and security, destroy legacies and 
lead to depression, homelessness or even suicide. Although financial 
crimes are committed against members of all age groups, the impact is 
particularly great on the elderly, who are unable to replace lost 
assets through work, saving or investment.''
    Dealing with elder financial abuse and exploitation is complex. Our 
primary policy focus, however must be directed toward the elderly 
victims because of the crimes impact on their lives. In fact, the Elder 
Justice Act in its Statement of Findings notes that victims of elder 
abuse, neglect and exploitation are 3.1 times more likely to die at an 
earlier age than expected than elders who were not victims of elder 
abuse, neglect and exploitation.
    Let me briefly review some of what we know about financial abuse 
and exploitation from various studies and reports reviewed for this 
hearing.
    A 1998 study of financial abuse and exploitation by the National 
Center on Elder Abuse determined that 40 percent of all reported cases 
of elder abuse, or more than 220,000 cases, involved some form of 
financial abuse.
    Further, they report that about 30 percent of all crimes against 
the elderly involve financial abuse, a higher percentage than physical 
abuse. Senator Breaux and the Special Committee on Aging have reported 
that elder financial abuse ranks third behind neglect and emotional 
psychological abuse as the most prevalent form of elder abuse.
    As Senator Breaux and the Special Committee on Aging have reported, 
there may be as many as four times as many cases of elder abuse which 
go unreported. On this basis they conservatively conclude that three to 
five million seniors are abused annually.
    Adult Protective Service agencies investigate more cases of 
financial abuse than physical abuse, according to a 2000 study done in 
44 states.
    The primary abusers in financial abuse and exploitation cases, as 
in all other forms of elder abuse, are family members.
    Other studies done in recent years focusing on financial abuse and 
exploitation make two important points for consideration by this 
Subcommittee. First, of all the types of elder abuse, financial abuse 
may be the most difficult to grasp because the problem itself is both 
poorly defined and defined differently in the states. Second, while 
financial abuse is similar to other forms of elder abuse in terms of 
its impact on the victim and perpetrators are more often family members 
(85 percent of perpetrators), it is distinct because it is more 
difficult to detect and prosecute because it is unclear whether an 
older person has truly understood and consented to the actions in 
question.
    For this Subcommittee's purposes, my testimony will concentrate on 
financial elder abuse and exploitation that occurs in a domestic rather 
than institutional setting.
    Returning to the issue of definition as it relates to financial 
elder abuse and exploitation, one definition is provided in a recent 
National Academy of Sciences report. They refer to ``elder 
mistreatment'' and define it as ``intentional actions that cause harm 
or create a serious risk of harm (whether or not harm is intended) to a 
vulnerable elder by a caregiver or other person who stands in a trust 
relationship to the elder.'' The panel uses the phrase ``trust 
relationships'' to denote the relevant relationships. Financial 
exploitation is illustrative. The conduct of interest is exploitation 
by family members and others who may have assumed fiduciary obligations 
for elders with diminished capacity for financial decisions.
    Another definition I would refer the Subcommittee to in a broader 
context is contained in the Elder Justice Act. Exploitation is defined 
as ``the fraudulent or otherwise illegal, unauthorized, or improper act 
or process of an individual including a caregiver or fiduciary that 
uses the resources of an elder for monetary or personal benefit profit, 
gain or that result in depriving an elder of rightful access to, or use 
of benefits resources belongings or assets.''
    According to another NCEA study entitled ``Financial Abuse of the 
Elderly'', financial abuse of the elderly may constitute the following 
criminal acts: Stealing, Larceny by False Pretense, Embezzlement, 
Forgery, Uttering-trying to pass a forged document as genuine, 
Extortion, Burglary, Robbery.
    A number of studies as well as discussions held with professionals 
in the field of elder abuse prevention point to the following as 
indicators of financial abuse that has occurred or is likely to occur:
    Bank activity that is erratic or uncharacteristic, including active 
use of an ATM card of a homebound senior.
    Recent acquaintances, especially anyone who takes up residence with 
the elderly person.
    Missing property.
    Older person being evicted or having utilities disconnected.
    Redirection of an older person's mail to a different address.
    An older person for whom arrangements have been made for the 
provision of care in the home who is then found to be uncared for or 
living in an unkempt environment.
    These indicators are supplemented by real life horror stories that 
take place every day in each of your states. In preparation for this 
hearing, NCPEA e-mailed a number of both NCPEA and Elder Justice 
Coalition members for examples of financial abuse and exploitation 
against the elderly. The responses were diverse and disturbing. They 
were stories, or in some cases news stories, which I will excerpt.
    ``NY Judges Investigated over Aunt with Dementia's Lost Fortune in 
their Hands.'' This story from the New York Daily News relates to a 
case which is still under investigation in Brooklyn, New York, and 
focuses on how a fortune worth nearly $1 million is now down to less 
than $10,000 after a woman's two nephews gained control of her assets.
    ``Son Charged with Stealing from Dad in Nursing Home.'' This case 
from Exeter, New Hampshire, involves a man who was indicted for 
stealing more than $6,000 from his own father who was living in a 
nursing home.
    ``Couple Charged for Nursing Home Scam.'' This story from Kingston, 
New York, describes the sentencing of the second person in the couple 
for a scam which involved stealing more than $1 million from 19 nursing 
home patients, utilizing the establishment of joint bank accounts.
    ``SEATAC Mayor Pleads Guilty, Resigns City Post, Vows to Repay 
Money from Woman She was Helping.'' This story from the Seattle Post 
Intelligencer earlier this year discussed the case of this public 
official pleading guilty to first degree theft for taking more than 
$139,000 from the trust of an 86 year-old woman of whom she was a 
friend for 30 years.
    Finally, there is a story from Phoenix involving an older man who 
was deemed unable to drive and was approached by his longtime neighbor 
with an idea. The idea was for the older man to buy his neighbor a 
$30,000 pickup truck. In exchange, the neighbor would transport the 
older person to the grocery store, pharmacy and other necessary places. 
One month after this, the neighbor suddenly became unavailable and 
stopped helping his elderly neighbor. Of course, he still has the 
pickup truck.
    Since elder abuse is a public health, law enforcement, and social 
service crisis, our search for solutions that stress prevention must 
involve these sectors and the other disciplines involved including 
research, the financial community and the advocacy community. Solutions 
must also be driven by government programs and policies which support 
prevention systems.
    The Elder Justice Act is premised on the fact that the federal 
response to combating elder abuse and neglect has been piecemeal and 
inadequate as the problem has intensified. Less than one percent of all 
federal funds spent on abuse go to elder abuse and not one single full-
time federal employee exists who works exclusively on elder abuse 
prevention.
    I would urge as a starting point that this Subcommittee commit to a 
strengthening of Title VII of the Older Americans Act, entitled 
Vulnerable Elder Rights Protection Activities. Under this program, 
states receive separate allotments of funds for the Long-Term Care 
Ombudsman Program and elder abuse prevention activities. The latter 
program has an appropriation of less than $5 million nationally. The 
ombudsman program is also under-funded. If the goal is to work for 
prevention of elder abuse, this program needs to be strengthened to be 
able to support those sound programs operating in the different states 
that are making a difference in preventing elder abuse. Money spent on 
elder abuse prevention activities is a sound and compassionate 
investment. I hope we can work together in advance of the next 
reauthorization of the Older Americans Act to make Title VII as strong 
as it needs to be to combat this problem.
    On a related point, closer collaboration is needed between the 
National Family Caregiver Support Program and elder abuse prevention. 
Elder abuse by family caregivers is rising. It is vital that as we 
provide information and referral and counseling to family caregivers, 
that it include the tools to avoid abuse that might occur due to the 
stresses of caregiving. It can also be used to better educate family 
caregivers on indicators or problems that might be the future basis for 
abuse, especially self-neglect. I would hope this Subcommittee could 
schedule a hearing on the National Family Caregiver Support Program and 
how it can aid in elder abuse prevention.
    Let me also note another area of concern about elder financial 
abuse as it relates to American Indians and Native Alaskans who are 
provided grants under Title VI of the Older Americans Act.
    Our nation's American Indian and Native Alaskan communities are not 
spared from the devastation and pain of financial abuse. The National 
Indian Council on Aging (NICOA) will soon release a report on elder 
abuse among American Indians and Native Alaskans that it has done for 
the National Center on Elder Abuse. The NICOA report will note that 
``Although little is known about elder abuse in Indian country, the 
existing literature and accounts by Indian elders and their families, 
tribes, and advocates suggest that it is a serious and pervasive 
problem.'' As part of their study, NICOA surveyed the directors of 
tribes' Older Americans Act-funded Title VI programs about elder abuse. 
(Title VI is the part of the OAA that provides direct grants to tribes 
to establish programs for elders). According to the respondents to the 
NICOA survey, the most common form of abuse is, ``financial abuse by 
family members, with almost two-thirds (63%) reporting that this type 
of abuse occurs often.'' Only 7 percent of the respondents indicated 
that financial abuse never happens to their tribe's elders.
    The NICOA report will offer examples of financial abuse of Indian 
elders reported by those they interviewed or surveyed, such as:
    An elderly woman was removed from a nursing home so that family 
members could gain access to her income checks.
    An elderly woman's home was taken over by younger people who are 
alcoholic. They financially abused her and placed her in a nursing 
home.
    Elders' family members come to visit at the beginning of the month 
and either take elders' money or leave when the money runs out.
    Some elders have extremely valuable artifacts, including 
traditional costumes, baskets and beadwork, which is highly sought 
after by collectors. These assets may be taken and sold by family 
members or others who have access to elders' homes.
    Family members may threaten elders into signing over funds or 
become their ``self-appointed'' guardians.
    Elders are convinced to purchase items they do not need such 
Medigap insurance policies. Elders who do not read are sold magazine.
    As NICOA states in their report, it is important to note that 
``experiences of Indian elders with abuse, however, and their attitudes 
about what should be done about it appear to differ from those of non-
Indian elders, suggesting the need for new responses to prevention.'' 
With that in mind, NICOA will offer a number of recommendations for 
responding to elder abuse among the American Indian and Native American 
population and describes ``promising practices'' from Indian Country.
    In addition, in the short term, it is my fervent hope that this 
Congress can provide additional appropriations for the Social Services 
Block Grant program (SSBG). I am heartened by actions already taken by 
the Senate to boost SSBG funding over the next two years. The House has 
also considered a similar bill without the SSBG increase. I hope that 
the bi-partisan commitment to SSBG can result in this needed increase. 
SSBG is the largest federal program providing funds for adult 
protective services. APS workers are on the front lines every day in 
every state investigating cases of elder abuse including financial 
abuse and exploitation. They face a dangerous reality. Their caseloads 
are increasing and their resources, both in terms of state and federal 
dollars, are drastically decreasing. This double jeopardy funding 
crisis threatens the APS system in each state and renders older 
Americans vulnerable to elder abuse.
    There are some programs that deal with elder abuse prevention, such 
as the Violence Against Women Act (VAWA) and the Victims of Crime Act 
(VOCA). NCPEA will speak to the importance of VAWA, especially in terms 
of the impact of VAWA funding and resources on the protection of older 
victims. Currently, the decrease in available funds for VOCA is 
impacting several programs that were trying to provide services to 
victims of elder abuse.
    The National Committee for the Prevention of Elder Abuse and the 
Elder Justice Coalition of course support the speedy enactment of the 
Elder Justice Act. We are grateful that this bill authored by Senators 
John Breaux and Orrin Hatch as well as Representatives Roy Blunt, Peter 
King and Rahm Emanuel, enjoys bi partisan support. I have attached a 
current list of the co- sponsors to my testimony.
    Overall enactment of the Elder Justice Act would bring us to a very 
important juncture in terms of embarking on a new and coordinated 
federal strategy and approach to the prevention of elder abuse, neglect 
and exploitation.
    With specific reference to financial abuse and exploitation, the 
Elder Justice Act offers a number of provisions. Among them are the 
following:
    Creation of an Elder Abuse Resource Center to collect data/
information on financial exploitation.
    Grants to pilot various media awareness campaigns.
    Grants to encourage banks to be on look-out for unusual activity in 
bank accounts.
    Multidisciplinary training to better help recognize signs of 
financial exploitation.
    Creation of an elder justice resource center to help support law 
enforcement response to these crimes.
    Model state laws will be developed from what is learned about 
financial exploitation and shared with the states and local government.
    Support to state and local prosecutors to provide back up resources 
and research to assist in prosecuting financial exploitation.
    Let me suggest Mr. Chairman that for a wide variety of reasons, it 
is important that Congress pass the Elder Justice Act. I do not make 
this statement alone. I am pleased to submit for the record a complete 
list of the 190 members of the Elder Justice Coalition which was formed 
just this year to try and advance the principles and provisions of the 
Elder Justice Act. We are proud to have representatives from the many 
disciplines who are involved in elder abuse prevention. These include 
adult protective and social services, health care, legal and law 
enforcement professions, family caregiver groups, and concerned persons 
serving as community volunteer advocates.
    A key element of this bill is its potential to empower and give 
greater support to the growing number of local and state based elder 
abuse prevention programs. The bill recognizes the reality that the 
federal government does not have to reinvent the wheel with respect to 
research, training and services in elder abuse prevention. Rather, it 
can evaluate successful models and best practices and provide resources 
to expand their growth or in some cases convert a local model into a 
national demonstration.
    This could include some innovative and established programs such as 
the Financial Abuse Specialist Teams (FASTs), Lawyers for Elder Abuse 
Prevention (LEAP), Massachusetts Bank Reporting Project, the Elderly 
Financial Management Project at the Brookdale Center on Aging of Hunter 
College in New York, and the Texas Elder Abuse and Mistreatment 
institute Team in Houston, Texas.
    The Elder Justice Act would also foster an environment for other 
newer programs to be embellished or established. This might include 
Daily Money Management Programs or even individual initiatives such as 
the Undue Influence Worksheet.
    One opportunity to further to focus on moving an elder abuse 
prevention agenda forward may rest with another program under the 
jurisdiction of this Subcommittee: the next White House Conference on 
Aging. It is to be held not later than December of 2005. It is to give 
specific focus to issues that will impact Baby Boomers as they age. 
Elder abuse prevention issues received unprecedented attention during 
the last conference in 1995. We need to do more during this next 
conference.
    Mr. Chairman, your conducting this hearing today also suggests that 
you recognize the growing nature of the elder abuse problem today and 
the very real elder abuse crisis that could confront this nation in the 
future. We face a dramatic increase in our elderly population between 
now and 2030. The first boomers will turn 65 in eight years. Today in 
America, 70 percent of all wealth is held by persons 50 and over, and a 
substantial intergenerational transfer of wealth is expected as the 77 
million baby boomers continue to age.
    The table is being set for a new wave of elder abuse cases, 
especially those involving financial abuse and exploitation. We need to 
emerge with a coherent and coordinated national policy to combat elder 
abuse. Today our policies are more reactionary. Tomorrow they must be 
proactive, comprehensive, culturally responsive, goal driven and 
outcome oriented. It will take time, but the time to begin is now.
    Mr. Chairman, The Elder Justice Act in its findings section notes: 
``The Federal Government has played an important role in promoting 
research, training, public safety, data collection, the identification, 
development and dissemination of promising health care, social and 
protective services and law enforcement practices relating to child 
abuse and neglect, domestic violence and violence against women. The 
Federal government should promote similar efforts and protections 
relating to elder abuse, neglect and exploitation.''
    Elder Abuse might have been an emerging issue in the late 1970s, 
but it has arrived today and its impact will grow significantly in the 
future. This Subcommittee has a strong and bi-partisan record of 
enacting legislation to benefit older Americans. Its record as it 
relates to elder abuse prevention must be expanded and the National 
Committee for the Prevention of Elder Abuse and the Elder Justice 
Coalition look forward to working with this Subcommittee on behalf of 
elder justice. Elder justice is defined as the right of older Americans 
to be free from abuse, neglect and exploitation. We believe a new 
commitment to elder justice is as important as any initiative that has 
been undertaken to improve the quality of life for seniors in need. It 
reaffirms our commitment to the priority that federal policy has always 
given to those most vulnerable as older persons.
                  Prepared Statement of W. Lee Hammond
    Financial exploitation has many disguises, causes, and forms of 
expression. But the common thread of its many modalities is an effort 
by unscrupulous persons to extract money and resources through a 
variety of devious means from unsuspecting and often vulnerable 
individuals. How best to determine the frequency of exploitation and 
its many effects on older citizens continues to be the subject of much 
debate. The incidence and impact of exploitation are difficult to 
estimate because: there is no national reporting mechanism, cases are 
often not reported, definitions vary, and the crimes difficult to 
detect.
    According to the 1998 National Elder Abuse Incidence Study, 
financial abuse accounted for about 12% of all elder abuse reported 
nationally in 1993 and 1994, and 30.2% of substantiated elder abuse 
reports submitted to Adult Protective Services (APS) in 1996 after 
excluding reports of self neglect. Further, the National Research 
Council's review of state figures indicates that financial exploitation 
is the most frequent form of reported elder abuse in Illinois and 
Oregon, while constituting half of all New York state reports, and 63% 
of reported cases in New York City.
    In the 2000 survey of the National Association of Adult Protective 
Services
    Administrators for the National Center on Elder Abuse, financial 
abuse/exploitation comprised 13% of the allegations of mistreatment 
investigated. However much exploitation is detected, reported, 
investigated, substantiated, or prosecuted, everyone agrees that more 
happens than is brought to light and that any exploitation is too much.
    While numerous types of activities constitute elder financial 
abuse, all have the same characteristic of the improper use of an older 
person's assets. But these activities go far beyond what most of us 
would consider merely ``improper.'' The forms of exploitation challenge 
our imagination, but not those of the perpetrators who employ, deceit, 
lies, forgery, false pretenses, coercion, or undue influence for 
personal gain.
    The other common characteristic of financial exploitation is abuse 
of trust. The perpetrators are not strangers snatching a purse, or 
robbers wielding a gun. They are sons, granddaughters, caregivers, 
neighbors, new-found friends, confidants, financial and spiritual 
advisors, and professionals who have--or develop--an aura of 
trustworthiness. To accomplish their deception they build on an 
appearance of reliability or professed expertise. They want the victim 
to see them as the savior, the hero, a true friend, or a concerned 
family member. Instead of a gun, their weapon of choice may be a 
purloined check, a power of attorney, a promise of financial security, 
or a smile and a bouquet of flowers.
    Recognizing that financial exploitation is a pervasive and 
increasing problem that specifically threatens our members' financial 
security, AARP is addressing this problem through programs that educate 
members, families, professionals and potential victims.
                         daily money management
    Older persons who are losing their ability to handle their 
financial affairs due to physical or cognitive impairments are 
vulnerable targets for financial exploitation. For more than twenty-two 
years, the AARP Foundation's Money Management Program has been 
successful in using volunteers to assist vulnerable low income older 
people with their daily money management needs.
    The program either provides a bill payer for those individuals who 
can still sign checks or a representative payee for those people who 
receive federal government income, such as Social Security, but need 
someone to help them manage their money.
    Presently, the Foundation's Money Management Program is in 20 
states and the District of Columbia, working with 130 agency programs 
and growing. The program served 4,845 individuals last year with about 
3200 volunteers who donated at least 4 hours each month to helping 
these vulnerable older people.
                          financial education
    AARP has conducted extensive educational projects to meet the needs 
of surviving spouses who may suddenly find themselves responsible for 
taking over the management of complex financial affairs when their 
spouse dies. Because these surviving spouses may not have had 
experience in managing money, they are vulnerable to the conniving 
``hero'' who offers to help out. In reality, such con artists only 
intend to help fill their own pockets. AARP's financial literacy 
programs are designed to expand financial awareness and enable 
participants to evaluate the trustworthiness of supposed advisors and 
experts.
                          colorado elder watch
    The Attorney General of Colorado dedicated approximately $1.5 
million over a 3-year period to protect older adults from financial 
exploitation after learning about the many telemarketing and other 
identity theft scams taking place in that state. AARP Colorado is a 
lead partner in this project, currently in its third year.
    The three purposes of AARP ElderWatch are: (1) INFORMATION IN: to 
provide a hotline for older persons in order to refer them to 
appropriate services, as well as to document the types of crime 
committed against older individuals in the state of Colorado and to 
track down and bring criminals more quickly to justice; (2) INFORMATION 
OUT: to provide educational information to the senior, legal, law 
enforcement and larger community to detect and prevent crime before it 
occurs; and (3) CLEARINGHOUSE: to serve as a clearinghouse by providing 
information on financial exploitation and consumer fraud to older 
Coloradans. Approximately 5,500 calls have been received and recorded 
to date and more than 270 presentations have been made across the 
state.
                   campaign against predatory lending
    AARP recognizes that for the vast majority of older persons, their 
home is their most valuable asset. In many instances, it is their only 
asset. To empower older homeowners to maintain their financial security 
and preserve the equity in their homes, AARP has launched an integrated 
campaign against predatory home lending practices. Predatory lenders 
extend high repayment loans that strip the home equity--leading to a 
growing number of foreclosures. In addition to legislative reform and 
precedent-setting litigation, AARP reaches out to older homeowners to 
educate them regarding what to watch for in borrowing against the 
equity in their homes. Trained AARP volunteers in two dozen states 
repeatedly go out into their communities and churches with talks, 
videos, warning signs and checklists--in both Spanish and English--to 
spread the word.
    This fall, AARP volunteers in four states--including Maryland--will 
be calling homeowners in neighborhoods known to be targeted by 
predatory lenders to alert them to the signs of predatory practices and 
encouraging them to get copies of their credit reports and scores 
before taking out any kind of loan.
                         consumer universities
    Another popular and very successful tool that AARP uses to alert 
older consumers to financial exploitation schemes is what we call 
``Consumer Universities.'' We are holding one such university at the 
Wicomico Youth and Civic Center in Salisbury, Maryland, on October 4th. 
At this university we will offer presentations by leading local experts 
on how to avoid being exploited in the financial marketplace, in one's 
home, or by false advisors.
                  legal clinics and attorney training
    In a number of states--including Maryland and the District of 
Columbia--we have held legal clinics for homeowners who are about to 
take out loans. At these clinics, expert lawyers or housing counselors 
examine loan applications to see if owners are about to be exploited by 
the loan terms.
    We have also trained over 200 lawyers in seven states on the legal 
remedies available to help victims of predatory lending, financial 
exploitation and elder abuse.
                         use of the aarp media
    AARP recognizes that we can educate many persons about financial 
exploitation through our array of publications. Each issue of our 
monthly newspaper, ``The Bulletin,'' has a ``Consumer Alert'' column. A 
recent video news release we disseminated tackled the problem of 
unscrupulous moving companies that hold customers' goods hostage, 
demanding payment far in excess of the estimate. Other Bulletin 
articles inform our readers of other potential ways in which they might 
be exploited. For example, the next issue will alert seniors to protect 
themselves from being targets of complex investment scams that promise 
huge returns.
    An upcoming article in ``AARP--The Magazine,'' with a readership of 
35 million, will focus on guardianship, with an example of how 
guardianship was used to remedy devastating financial exploitation. 
AARP's website has many articles aimed at helping consumers improve 
financial literacy and protect themselves against exploitation. For 
example, because powers of attorney can potentially cause financial 
devastation when in the hands of the wrong agent, we have articles both 
for the consumer on how to select an agent, and for the agent on how to 
properly exercise their authority.
                                research
    The AARP Public Policy Institute (PPI) undertakes research on 
consumer financial and fraud issues to better understand their causes, 
and to promote the development of preventions and protections against 
possible financial exploitation. Such issues include preneed funeral 
and burial agreements, identity theft, and the regulation of home 
improvement contractors and subprime mortgage lending.
    Funeral and burial purchases are often made when buyers are 
emotionally vulnerable and lack the time and information to negotiate 
prices effectively. As more people pay for their funeral and burial in 
advance, it is increasingly important that laws and regulations be in 
place to effectively regulate this unique consumer purchase. PPI 
recently researched changes in industry practices and analyzed state 
laws governing preneed agreements. The objective was to determine the 
extent to which state laws incorporated significant consumer 
protections. Information gathered has been shared with state officials 
and the Federal Trade Commission as that agency reviewed its rules 
requiring disclosure of price information in the sale of funeral 
products and services.
    Identity theft, another form of financial abuse, is considered one 
of the nation's fastest growing crimes and creates tremendous problems 
for consumers in obtaining credit and clearing credit records of 
fraudulent account activity and incorrect information. PPI recently 
analyzed the Federal Trade Commission's 2001 complaint data from its 
Identity Theft Data Clearinghouse to identify the types of identity 
theft problems experienced by consumers age 50 and older. The analysis 
found that older complainants were more likely to report a greater 
variety of identity theft crimes, including ``attempted'' identity 
theft, than other complainants. AARP included this information in 
recent testimony before the Senate Banking Committee in support of 
improvements in the Fair Credit Reporting Act.
    Abusive home loans and home repair practices are a final major area 
of research that we will mention. As noted earlier, a home is usually 
the largest financial asset held by older households. Home improvement 
is essential for preserving both the safety and value of the 
homeowner's property. According to the Bureau of Labor Statistics' 2002 
Consumer Expenditure Survey, Americans spent more than $173 billion on 
contracted home improvement projects and do-it-yourself home repairs.
    Older homeowners have a greater need for hiring home improvement 
contractors than younger homeowners because they have higher rates of 
homeownership and tend to own older homes that are more likely to need 
repair. Further, as homeowners age they are less likely to undertake 
home repairs on their own.
    Research indicates that older homeowners are often more vulnerable 
than younger homeowners to fraudulent home improvement practices 
because they: are more likely to be home during the day when fraud 
perpetrators operate; have relatively large amounts of readily 
accessible cash (on hand or in a checking account); and are less likely 
to take action against fraudulent contractors.
    To improve enforcement against fraudulent contractors, AARP, in 
cooperation with the National Consumer Law Center, developed a model 
state law to (1) improve the licensing, bonding, and insurance coverage 
of contractors, and (2) prohibit misrepresentations and deceptive acts. 
PPI has also initiated a significant research project regarding lending 
practices in the subprime mortgage market where predatory lending 
practices disproportionately occur.
    Recently, PPI undertook an analysis of a national survey of 
mortgage borrowers age 65 and older who acquired prime or subprime 
refinance loans to determine if there were any differences between 
loans originated by ``lenders'' as compared to ``brokers.'' Because 
home equity is a key component of wealth in older households, it is 
critical to assure that older mortgage refinance borrowers can obtain 
fairly priced loans that protect their current and future financial 
security, regardless of who originates the loan. The study found that 
older refinance borrowers with broker-originated loans were more likely 
to report having received loans with less favorable terms, such as 
prepayment penalties, than those with lender-originated refinance 
loans. Also, broker-originated refinance loans were nearly twice as 
likely as lender-originated loans to be subprime loans.
    Finally, older refinance loan borrowers with broker-originated 
loans were much more likely to report that they did not initiate 
contact regarding a loan; they also relied more on the broker in making 
important mortgage-related decisions than older borrowers with lender-
originated loans. PPI is currently undertaking an analysis of state 
laws regulating mortgage brokers to determine if changes are needed to 
protect older consumers against unfair and deceptive practices.
    AARP regards its multifaceted effort against the financial 
exploitation of older persons as a valuable way to equip consumers, 
families, professionals and vulnerable elders to detect, prevent, or 
intervene before financial crises arise. We make information about all 
of our programs, services and research available online, in print media 
or both.
    AARP appreciates this opportunity to share our financial abuse 
education and prevention activities with the Committee and looks 
forward to working with you to pass legislation, like the Elder Justice 
Act (S. 333), to provide a comprehensive national approach to elder 
abuse prevention. Thank you.
               Prepared Statement of Richmond D. Chambers
    I am pleased to be here today to describe a scam against elderly 
Visa credit card holders. I live in a condominium apartment at 8101 
Connecticut Avenue in Chevy Chase, Maryland.
    I received a telephone call on April 2, 2003 from a man purporting 
to be a representative of the Visa organization. He said Visa had 
sustained a computer problem in which information on 5,000 accounts had 
been lost and that certain information had to be retrieved if my 
account was to remain active. I had received a similar call some months 
before from a source that hung up when I refused to answer his 
questions. I was again suspicious. I asked this caller a number of 
questions, which he answered very convincingly. He finally gave me a 
toll-free phone number, which he said would verify his identity. I 
called back and was answered by a female who said `` Visa'' and 
connected me with the original caller. I believed he had established 
his identity, and I gave him the three numbers on the back of my Visa 
card, my mother's maiden name and my social security number. He, in 
some way, had already secured my address, Visa card number and 
obviously my phone number.
    The next day on leaving my apartment, I found a flyer at my door 
entitled ``Resident Alert''. The document was issued by my apartment 
manager and described exactly the Visa fraud in which I had been 
victimized the previous day. I immediately called the fraud unit at 
Visa and related the incident.After verifying several charges to my 
account, I was asked if I had charged $2,750 to Western Union. I had 
not. I later discovered that Visa had authorized the claim, but had not 
issued payment against the charge. My account was closed and 
reestablished with a new number.
    I was fortunate that I had sustained no financial loss in the 
matter. I reported the entire affair to the Montgomery County Maryland 
Police, who arranged two television appearances for me to publicize the 
scam. The Montgomery County Maryland Police and the State Attorney for 
Montgomery have updated me on this case. The police determined that the 
scam operators were based in Miami, Florida. Officers were dispatched 
to Miami to investigate. With the cooperation of the local police, 
eleven suspects were arrested and extradited to Montgomery County 
Maryland to face trial. I was recently informed that approximately 
forty residents in the general Chevy Chase area were victimized by this 
scam. A number of the victims actually had money paid from their Visa 
account to Western Union for pick up.
    At least five additional residents of my condominium were 
victimized in this scheme along with residents across the street in an 
assisted care residence. I have no information regarding whether those 
arrested had information on the ages of their victims. I was favorably 
impressed with the reaction of the valid Visa representative, the 
Montgomery County Police, the local television stations, and our alert 
building manager, Katie Wyrsch, all of whom had a part in bringing 
these alleged criminals to justice.
                Prepared Statement of Franklyn S. Greene
    Thank you for giving us the opportunity to testify before your 
committee on this very important issue.
    The following is, a true account of, what happens to our seniors 
when there is no legal protection for them.
    My wife's uncle, Karl, and his wife were both professional people 
and well educated. Karl was also a veteran of WW II, in the Maryland 
29th Division. They had no children, so our family were their only 
relatives, in the Maryland area, who could watch over and help them as 
they grew older. Karl's wife died, in 1991, leaving Karl alone and very 
lonely.
    As they aged, and because of health reasons, we helped them set up 
revocable trusts to protect their assets. These trusts, set up about 
1988, are the only thing that saved Karl from complete disaster. He 
named me as Trustee of both of their Trusts.
    We tried to get him involved in a senior center, and get him out to 
meet people of his own age, so he would have company. He did not want 
to meet or socialize with others, even with our help.
    During the Winter of 1996-97 (when Karl was 86 years old) our 
nightmare began. Karl was approached by a young woman (age 45) at the 
``IHOP'' restaurant where he frequently ate lunch. This woman told him, 
she had been put out of her apartment and had no place to live. She 
agreed to live in Karl's house and clean, do the laundry, cut the 
grass, and take care of him.
    Being the nice, caring person he always was, he felt he would be 
helping her. He agreed to this arrangement, and she moved into his 
house.
    This woman did not look like, or act like, the type of person you 
would ``take home to mother''. Karl had no information on this woman, 
who she was, or where she came from. We decided to hire a private 
detective to determine who she was. Their report came back showing an 
extensive criminal background and continuous run-ins with the Baltimore 
County Police. We then obtained her criminal records, showing she had 
been arrested over 20 times, convicted many times, and had served time 
in jail. The County Court system had even taken her son away from her 
for child neglect.
    We went to visit Karl, again, to try and get him to end this 
relationship, but he still thought he was helping her. He liked her 
``since she was young and thin'', and kissed and hugged him.
    In early 1998, Karl called us and told us his phone bill was wrong 
and he didn't know what to do. We again, went over to his house and 
checked the phone bill which was over $200. We found this woman had 
phoned a psychic reader, and run up the large phone bill. She, of 
course, denied making the calls. I phoned the number, and they had her 
recorded voice agreeing to pay the bill. Karl, finally, agreed with us 
and let me put her out.
    During this time, Karl was very hard of hearing and we sometimes 
had a difficult time conversing with him. We also noticed a continued 
failing of his mental capacities. Also at this time, he was being 
treated by his family doctor for a heart condition and diabetes.
    Shortly after, Karl took her back into his house. In August 1998, 
she obtained a cell phone without his permission and ran up a $400 bill 
in 2 months.
    In September of 1998, she charged $1400 worth of items at Sears, 
again without Karl's permission. This bill was discussed with Karl and 
Sears, and also was not paid. I canceled his charge cards, so she could 
not use them again.
    In December of 1998, she and her boyfriend forged several checks. 
Karl did not want to prosecute her for this. These checks were used to 
pay a bail bondsman.
    With Karl's permission, we again put her out of his house. When we 
would go over for a visit, we were appalled at the condition of his 
house. There were dirty dishes with food in her room, trash and mouse 
feces everywhere, and laundry all over the floors. The basement was so 
full of junk that you could not walk around without stepping on things.
    During the end of 1998 and 1999, we had a man, (about age 50), stay 
with and care for Karl and keep him company. He took good care of Karl, 
kept an accurate accounting of any money spent, and was a good friend.
    While cleaning Karl's house, we took 23 large plastic trash bags of 
junk to the dump. While cleaning her room, we were appalled to find all 
of Karl's personal papers which should have been in his desk upstairs. 
These included his birth certificate, car title, army discharge, 
Janet's personal papers and other important information.
    At this time, I filed a criminal report with Baltimore County and 
had her arrested. At this trial, Katie O'Malley (the wife of Mayor 
O'Malley) was the States Attorney. We discussed this trial with her and 
she said she could not put Karl on to testify, as he could not make his 
mind up, as to what happened.
    Again in 1999, the Baltimore County Police arrested her outside a 
local pool hall. With her, in the car were Karl's wallet and both of 
his coin collections.
    During this time, Karl bought her a set of diamond earrings at a 
local jewelry store. She returned them and received a full refund, 
verified by the owner of the store. She then charged me with stealing 
them.
    In mid 1999 she hired an attorney to rewrite Karl's will. However, 
Karl did not change it, again leaving everything to Fran and her 
brother.
    In September 1999, Karl again took her back into his house, along 
with her boy friend. They, then, put out the man we had staying with 
Karl for over a year.
    Somehow, she talked Karl into marrying her on October 6, 1999. 
After this ``marriage'' his ``wife'' would continuously call the Trust 
officer at the bank requesting money. She wanted $10,000 for a wedding 
trip, $5,000 for wedding rings, plus other money for odd items. We did 
not forward any of this requested money to her as an ample budget had 
been set up previously for him through the Trust.
    Shortly after, she employed another attorney to rewrite Karl's 
trust and will. I spoke with him and suggested he check to be sure Karl 
was competent to sign important papers before he went ahead.
    This attorney and Karl's ``new wife'' then had him examined by two 
doctors who both said he was incompetent. We then had him examined by 
his own physician, who also said he was incompetent.
    She then hired another attorney to rewrite all of Karl's papers. He 
sent me, and the bank, a letter requesting all kinds of personal 
information so he could change Karl's Will and Trust.
    I informed him, we would not provide any information and would not 
be responsible to pay his fee.
    We then hired an attorney, to file for Guardianship, to protect 
Karl. We could not file prior to this, as Karl would not get the needed 
medical examinations.
    The trial or hearing on his competence was set for March 27, 2000. 
Karl, mysteriously, died on March 6, 2000. His doctor would not sign 
his death certificate without a full autopsy.
    Karl and Janet had made me Trustee of their Trusts in 1988, and 
never changed that. I was involved in all the legal work, thefts, and 
cleaning up the messes created. We worked for well over 2 years to 
finally straighten out and close this disaster. During this time, we 
became involved in several lengthy and expensive law suits, filed by 
his ``wife''. After Karl's death, it took us over 1 year to remove her 
from his house. After she left, all that remained in the house of 
Karl's possessions was one light bulb, a lot of trash, and unpaid 
utility bills.
    During Karl's lifetime we tried everyone, we could think of, to 
help Karl and us, from the Baltimore County Department of Aging, Social 
Services, two State Senators, a local attorney, and Karl's physician.
    There needs to be legislation passed to protect the elderly from 
themselves and predators. It takes months to work through the legal 
system, and much harm can occur during that period. Hopefully, this 
letter will help you pass legislation to help others in the future.
Prepared Statement of Pamela B. Teaster, Ph.D. \1\ and Lisa Nerenberg, 
                           M.S.W., M.P.H. \2\
---------------------------------------------------------------------------
    \1\ Vice President, National Committee for the Prevention of Elder 
Abuse and Assistant Professor, Ph.D. Program in Gerontology and 
University of Kentucky School of Public Health, 306 Health Sciences 
Building, 900 S. Limestone, University of Kentucky, Lexington, KY 
40536-0200, 859.257.1450 ext: 80196 (telephone), <a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="9dede9f8fceee9f8efdde8f6e4b3f8f9e8b3">[email&#160;protected]</a>
    \2\ Consultant, National Committee for the Prevention of Elder 
Abuse, <a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="91fdfff4e3f4fff3f4e3f6d1f0fefdbff2fefcbf">[email&#160;protected]</a>
---------------------------------------------------------------------------
  report for the national committee for the prevention of elder abuse 
                 partner national center on elder abuse
    The authors wish to thank the representatives of the 
multidisciplinary teams for their dedication to addressing the problem 
of elder abuse and their assistance with this project.
                                abstract
    Elder abuse multidisciplinary teams (MDTs) include professionals 
from diverse disciplines who work together to review cases of elder 
abuse and address systemic problems. MDTs reflect the understanding 
that clinical and systemic issues often exceed the boundaries of any 
single discipline or agency. Using an e-mail survey format, the authors 
received information from 31 MDT coordinators across the country 
representing fatality review teams, financial abuse specialist teams, 
medically oriented teams, and ``traditional'' teams. The coordinators 
provided information on the functions their teams perform, the 
importance of specific functions, cases reviewed, composition of teams, 
policies and procedures, administration, funding, and challenges to 
effective functioning. The most frequently performed functions are 
providing consultation aimed at assisting workers to resolve difficult 
abuse cases; identifying service gaps and systems problems; and 
updating members about new services, programs and legislation. When 
asked about the importance of these functions, responders ranked 
providing consultation aimed at assisting workers to resolve difficult 
abuse cases significantly higher than other functions. Teams expressed 
only mild concern for breaches in confidentiality. MDTs stressed the 
importance of input by professionals from the legal community for 
successful team functioning.
    Key Words: multidisciplinary team, elder abuse, interdisciplinary 
team, financial abuse, fatality review, coordination.
         a national look at elder abuse multidisciplinary teams
    Multidisciplinary teams (MDTs), groups of professionals from 
diverse disciplines who come together to review abuse cases and address 
systemic problems, are now a hallmark of elder abuse prevention 
programs. Teams first emerged in the early 1980s in recognition of the 
fact that clinical and systemic issues that abuse cases frequently pose 
exceed the boundaries of any single discipline or agency.
    Teams are believed to offer many benefits to professionals, 
clients, and communities. In addition to helping individual service 
providers resolve difficult cases, the team review process has been 
credited with enhancing service coordination by clarifying agencies' 
policies, procedures, and roles and by identifying service gaps and 
breakdowns in coordination or communication. Teams may also enhance 
members' professional skills and knowledge by providing a forum for 
learning more about the strategies, resources, and approaches used by 
multiple disciplines.
    The rapid proliferation of MDTs across the U.S. and Canada in the 
last 2 decades has been accompanied by a growing demand for highly 
specialized expertise in such areas as financial abuse, fatality 
review, and medical issues. Federal, State, and local governments have 
increasingly acknowledged the importance and benefits of MDTs and have 
responded by providing resources, technical assistance, and statutory 
authority.
    Currently, there is a paucity of research examining elder abuse 
MDTs. The research that does exist is localized, focuses on team 
development, and highlights the benefits of MDTs (Manitoba-Seniors-
Directorate, 1994; Wasylkewycz, 1993; Wolf, 1988). Research does not 
address the functions and composition of MDTs and is not national in 
scope. Although anecdotal evidence suggests that teams offer tangible 
benefits to their members and communities, in-depth studies to identify 
how they function and demonstrate their impact on the problem of elder 
mistreatment have not been conducted. To begin to shed light on the 
functioning of teams, the National Committee for the Prevention of 
Elder Abuse (NCPEA), as partner in the National Center on Elder Abuse 
(NCEA), carried out a national survey. Team representatives were asked 
to identify key features of teams, explain variations, describe 
specialized teams, and identify common obstacles and how they are being 
addressed. The information presented below provides a picture of the 
various types of teams that responded to the survey. Further, it 
provides a framework for decision-making for groups that are 
considering starting teams or enhancing existing teams, and sets the 
stage for future research on teams' impact and effectiveness.
                                methods
    Because no national list of MDTs was available, the authors 
requested the help of NCPEA's Board of Directors and subscribers to 
NCEA's list serve (operated by the American Bar Association's 
Commission on Law and Aging) to identify and suggest elder abuse teams. 
The request yielded approximately 40 recommendations. The authors did 
not provide a specific definition of teams in order to capture a wide 
variety. However, they attempted to include teams that represented a 
diverse mix in terms of size of membership, focus, geographic location, 
and length of time in existence. The sample included ``traditional'' 
MDTs as well as specialized teams including financial abuse specialist 
teams (FASTS), teams with a medical orientation, and fatality review 
teams.
    After approval by the University of Kentucky's Institutional Review 
Board, the authors sent e-mail letters to representatives or 
spokespersons of 40 teams. The e-mail communication explained the 
project, invited representatives of MDTs to participate, and advised 
potential participants of project timelines and processes. Thirty-two 
team coordinators indicated their willingness to participate, and the 
project group sent out 32 surveys to them. Coordinators were given 2 
weeks to complete the surveys and return them via e-mail, fax, or 
conventional mail. At the end of that period, members of the project 
group made follow-up calls to ensure the highest possible response 
rate. Of the original 40 team coordinators contacted, 31 returned 
surveys, for a response rate of 77.5 percent.
Data Collection Instrument
    The survey instrument (Appendix A) was developed in consultation 
with members of NCPEA's Board of Directors to elicit information on 
defining features of teams such as sponsorship, funding sources, 
formalized policies and agreements, and membership. Respondents were 
also asked to identify challenges MDTs encountered as well as 
successful resolutions. They were further asked to describe products 
and accomplishments. Prior to sending the survey to the entire group, 
it was pilot tested with two team coordinators, whose suggestions were 
then incorporated into the final survey that was sent to respondents.
    Raw data were entered by a doctoral level graduate student in the 
Ph.D. Program in Gerontology at the University of Kentucky and cross-
checked for accuracy with the assistance of another doctoral level 
gerontology student. The doctoral level assistant contacted respondents 
for clarification when questions arose regarding the information 
provided on the survey. Data were analyzed by faculty and graduate 
students at the University of Kentucky using descriptive statistics.
                                results
Functions of Teams
    To identify the most frequently performed functions of MDTs, 
respondents were given a checklist and asked to indicate those they 
perform. They were also invited to add additional functions.
    The two most frequently cited functions of teams (Table 1) were 
providing expert consultation to service providers and identifying 
service gaps and systems problems (93.5 percent each). Nearly all teams 
also update new members about services, programs, and legislation (90.3 
percent). Well over three-fourths of teams perform the following 
additional functions: advocating for change; planning and carrying out 
training events; and planning and carrying out coordinated 
investigations or care planning.

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

    Respondents were given the opportunity to list additional functions 
and added the following: providing training to team members on 
techniques, developing a coordinated community response to older 
victims of domestic violence and elder abuse victims, encouraging the 
investigation and prosecution of elder abuse crimes, resolving 
difficult health and social problems, cutting through delays that are 
built into ``the system,'' and providing an opportunity for colleagues 
to offer support and advice on such issues as setting boundaries with 
clients and counter-transference.
Importance of Team Functions
    In addition to identifying frequently performed functions, 
respondents were asked to rate the importance of each function on a one 
to five scale (with one being of no importance and five being 
essential). The highest ranking function was ``providing expert 
consultation to service providers,'' which was rated as ``Very 
Important'' or ``Essential'' by 71 percent of respondents (Table 2).


<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

    Approximately half the teams ranked as ``Very Important'' or 
``Essential'' the following functions: updating members about new 
services, programs, and legislation; identifying service gaps or 
systems problems; planning and carrying out coordinated investigations 
or care planning; and carrying out training events. As was the case 
with the earlier question, respondents were invited to list additional 
functions and to indicate their importance. Ranked as ``Essential'' 
were providing training to team members on techniques, developing a 
coordinated community response to older victims of domestic violence 
and elder abuse victims, and encouraging investigation and prosecution 
of elder abuse crimes.
Types of Cases Reviewed
    Most MDTs conduct case reviews, but they may handle the review 
process quite differently. For example, some teams review all types of 
elder abuse cases, while others focus on certain types. Nearly three-
fourths (71.0 percent) review cases involving all types of abuse and 
neglect. Seven teams (22.6 percent) focus on financial abuse cases. Of 
these, five described themselves as Financial Abuse Specialist Teams 
(FASTS), a model developed in Los Angeles in the early 1990s and since 
replicated in other communities. Despite the common name, there are 
wide variations among the FASTS. For example, one FAST meets every 2 
weeks, only includes representatives from public agencies, and places 
an emphasis on its rapid response to deter abuse and preserve assets. 
Another FAST has over 50 members, includes representatives from many 
private, non-profit agencies, and meets quarterly.
    One team in the sample identified itself as a ``fatality review 
team,'' a model that was originally developed in the fields of child 
abuse and domestic violence to review suspicious deaths or ``near-
deaths.'' Five additional teams indicated that they review fatalities 
but did not specifically call themselves fatality review teams. Two 
teams focused on medical issues in cases involving clients with 
multiple medical problems or cognitive decline.
    Several teams indicated that they focus on particularly problematic 
cases, such as self-neglect cases, cases involving persons with mental 
illness and mental retardation, high-risk situations, and cases in 
which guardianship is being considered. Although many of the teams 
address systemic problems and issues, two teams indicated that they 
focus exclusively on systemic issues (as opposed to clinical issues 
related to client care).
Team Attendance
    Respondents were asked to indicate how many people regularly attend 
team meetings. The question was posed in this way (as opposed to asking 
for number of members) because teams that operate informally may 
welcome all interested professionals to attend and do not require them 
to sign membership agreements. Nearly half (45.2 percent) of the teams 
have an average attendance of between 5 and 10 people. Just over one-
quarter (25.8 percent) routinely have between 10 and 20 participants, 
nearly a tenth (9.7 percent) have between 20 and 30 people attend 
regularly, and nearly a tenth (9.7 percent) routinely draw more than 30 
participants. One team typically has fewer than four in attendance (3.2 
percent). Two teams did not respond to the question (6.5 percent).
    Attendance Requirements. A fourth of MDTs (25.8 percent) require 
members to attend a certain number of meetings yearly (e.g., 5 to 10). 
Three teams indicated that missing a certain number of meetings (e.g., 
three consecutive meetings) is grounds for dismissal. Typically, team 
members are encouraged to provide alternative attendees in their 
absence if they are unable to attend.
    Frequency of Meetings. Nearly three-fourths of MDTs (74.2 percent) 
meet monthly (9.7 percent meet every 2 weeks, 9.7 percent meet every 
other month and 3.2 percent meet quarterly). One Team (3.2 percent) 
meets as needed in addition to its regularly scheduled meetings. To 
streamline meetings, some teams have structured agendas, which include 
such items as introductions, reviews of confidentiality, guest speakers 
or educational presentations, and updates on services or developments 
in the field.
Categories of Membership
    MDTs were asked specific questions about their members. Teams 
reported that they recruit individual members, invite agencies to join 
and to designate representatives, or both. Individual members 
participate for their own benefit and represent their own viewpoints or 
perspectives, while agency members may serve as liaisons between their 
organizations and the team, convey agency policy and perspectives, and 
commit resources. Well over half of the teams (64.5 percent) allow 
individuals to join regardless of agency affiliation.
    Organization members include private non-profit agencies, public 
agencies, and for-profit agencies (including professionals in private 
practice). Some teams only permit non-profit agencies and individuals 
who work for non-profit agencies (61.3 percent) to join. Slightly over 
one-third (35.5 percent) permit for-profit businesses to participate. 
Two teams only include representatives from public agencies.
    Certain teams have created special categories of membership. For 
example, some have ``core member'' (e.g., APS, or law enforcement), 
categories that must be filled at all times, and other categories that 
are considered desirable but not required. Teams may extend certain 
benefits to some members and not others, including the right to present 
cases (Table 3). Over half (58.1 percent) permit any team member to 
present cases, while others (29.0 percent) only allow certain members 
to do so (one team only permits APS workers to present cases, and 
another permits APS, Ombudsmen, law enforcement, and private attorneys 
to present). Still others (25.8 percent) allow any service provider in 
the community to present cases, regardless of whether or not they are 
members.

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

    Respondents indicated that the responsibilities of members also 
vary. For example, some teams require certain members to provide 
additional consultation or training between meetings and another uses 
``technical advisors'' who do not routinely attend meetings but who are 
called upon for assistance as needed.
Disciplines Represented
    Respondents were asked to indicate what professional disciplines 
are represented on their teams (Table 4). The most commonly cited were 
police and sheriffs, which was listed by 93.5 percent of respondents. 
APS workers participate on 83.9 percent of teams. Disciplines included 
on more than half of the teams are: providers of geriatric mental 
health services, prosecutors, aging service providers, public 
guardians, and domestic violence advocates. Other disciplines 
represented on fewer than 50 percent of teams include nurses, 
physicians, non-geriatric mental health professionals, and victim-
witness advocates. Approximately a third (32.3 percent) include 
representatives from financial institutions, and another third (32.3 
percent) include clergy. Just over one-quarter (25.8 percent) include 
retired professionals.

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

    Respondents were invited to list other disciplines and service 
categories included on their teams, and over half (51.6 percent) did 
so. These included ethicists, animal care and control officers, public 
administrators, probation and parole personnel, code enforcement 
personnel, resource specialists, fire fighters, a retired judge, 
housing managers, housing advocates, personnel from assisted living 
facilities, members of public utility boards, in-home service 
providers, realtors, representatives from State long-term care 
licensing and regulatory agencies, hospital social workers, emergency 
medical personnel, providers of services for persons with developmental 
disabilities, media representatives, homeless shelter staff, health 
department personnel, health statistics specialists, health advocates, 
and certified public accountants.
Level of Team Formality
    Respondents were asked several questions about formalized policies 
and procedures they employ and written materials they use to document 
or support policies and procedures, including meeting summaries, 
memoranda of understanding, ``job descriptions'' for members, 
orientation materials, policy and procedures manuals, and membership 
categories. These are described below (Table 5).
    Proceedings of Meetings. Over half (54.8 percent) of MDTs produce 
written records of meetings, which may be in the form of ``minutes,'' 
summaries of the proceedings or case reviews, and recommendations. One 
team uses genograms to graphically depict the content of the team 
review (charts that graphically describe the social and familial 
relationships between individuals, a technique primarily used by mental 
health professionals to help identify positive and negative influences 
affecting an individual).
    Teams that produce written records of meetings vary in how they use 
and disseminate them. Over half (51.6 percent) disseminate information 
on case reviews to team members and others. One MDT disseminates 
minutes to members but excludes information on case reviews, while 
another sends minutes to non-members in addition to members (including 
all police departments in the county, the district attorney, the 
Sheriff's Department, State adult protection, the public administrator, 
and a legal center for handicapped and older adults) as a way to 
educate these groups about the issue. A medical team includes case 
review summaries in clients' medical charts. One team that produces 
minutes keeps them in a special team book maintained by the program 
coordinator, who provides summaries upon request.
    Contracts and Memoranda of Understanding. Just over half (51.6 
percent) of MDTs require members to sign contracts or memoranda of 
understanding, which typically include provisions for confidentiality 
and terms of membership. Over a fourth of teams (29.0 percent) require 
agency supervisors or administrators to sign contracts or memoranda of 
understanding, affirming the agencies' commitment to assign 
representatives and to replace representatives who are unable to meet 
their commitments.


<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

    Guidelines for Review of Cases. Just over half (51.6 percent) of 
teams use case review guidelines to provide direction or suggestions to 
presenters on what information to include in case presentations and the 
order in which to present it. Typically included are the client's 
living arrangement, support network, functional status, a description 
of the abuse and/or other presenting problems, and a history of 
attempted interventions or services.
    Policies and Procedures Manuals. Approximately a third (32.3 
percent) of teams indicated that they have formal policies and 
procedures manuals. Only one team keeps the manual on disk rather than 
having it in hard copy due to the sensitive nature of its contents.
    Job Descriptions. Over a fourth (29.0 percent) use job descriptions 
for members, which may be contained in membership agreements, member 
handbooks, or elsewhere. The State of Wisconsin has developed a manual 
for its counties that includes job descriptions for representatives 
from the fields of law enforcement, medicine, law, domestic violence, 
financial management and mental health, as well as clergy. In addition 
to outlining the specific duties and responsibilities of each 
representative, Wisconsin's job descriptions also contain detailed 
requirements with respect to education, experience, training, 
knowledge, skills, and abilities. For example, it is recommended that 
law enforcement representatives have associates' degrees in criminal 
justice or another social science.
    Orientation Materials. Approximately a fourth of teams (29.0 
percent) use orientation materials, which usually include handbooks 
that contain general information on elder abuse, pertinent laws, 
research articles, policies, mission statements, confidentiality 
agreements, by-laws, etc. One team has produced a video that all new 
members must view.
    Term Limits. Nearly a fourth (22.6 percent) of the teams have term 
limits for members, the most common of which is 1 year. The majority of 
teams (77.4 percent) allow members to serve more than one term. An 
annual renewal process may serve as an opportunity to review members' 
participation during the year and determine whether they have met their 
obligations to the MDT.
    Other Information. Other written materials used by teams include a 
handbook for coordinators and written protocols. Some teams solicit 
input from members through routine or occasional surveys that ask how 
useful meetings are to members or by requesting suggestions for 
educational presentations. They may further ask members to provide 
information about case outcomes (e.g., were prosecutions successful as 
a result of team interventions; were assets or property recovered and, 
if so, what was the amount). Team members may be asked to indicate how 
many hours they have contributed during and between meetings and to 
estimate their associated pro bono contributions. Some teams ask 
members to fill out feedback forms at the end of every meeting.
Administration
    MDTs were asked to provide information about administration. Four 
teams (12.9 percent) were coordinated by an Area Agency on Aging, and 
APS administered 10 (52.6 percent) teams. Other arrangements included 
administration by a district attorney's office or in collaboration with 
agencies/organizations such as a university, a local non-profit, or 
sheriff's office. Some operate informally without designated 
administrators. Activities associated with team administration that 
were cited included producing and sending out agendas, meeting 
announcements and minutes; arranging for meeting space; recruiting 
members and negotiating contracts and memoranda of understanding; 
preparing materials such as handbooks and job descriptions; producing 
and disseminating minutes; selecting cases; serving as a focal point 
for questions; and, in the case of some teams, following up on members' 
recommendations.
Leadership
    Adult Protective Services (APS), the agencies mandated to respond 
to reports of abuse, neglect, and exploitation of older adults in most 
States, play a prominent role in MDTs. Nearly one-third of teams (32.3 
percent) are administered by APS programs alone or in collaboration 
with other agencies (e.g., one team involves collaboration between APS 
and a hospital-based geriatric program). Following APS, Area Agencies 
on Aging (AAAs) (12.9 percent) are the next most likely entity to 
administer teams. Just over half (51.6 percent) of the teams surveyed 
are administered by other agencies. These include a county attorney's 
office, a private non-profit agency, a State Attorney General's office, 
a university, and an ``elder abuse provider'' agency.
Funding and In-kind Support
    MDTs were asked to describe their sources of funding and in-kind 
support. The most common source of support to teams is APS programs, 
which provide support to 38.7 percent of the teams surveyed. Most APS 
support is in-kind (92.0 percent), which includes staff time (this may 
be for case workers, supervisors, support and clerical staff), meeting 
space, and the printing and mailing of materials. A fourth of APS 
programs (25.0 percent) provide funding, with amounts ranging from $70 
to $250.
    Area Agencies on Aging (AAA) are the second most common source, 
providing support to 32.3 percent of the teams (again, most support is 
in-kind). Monetary support from AAAs includes elder abuse funds 
authorized under the Older Americans Act. Dollar amounts ranged from 
$3,000 to $85,122 annually.
    Nearly a half of MDTs (48.4 percent) receive support from other 
sources. Monetary support is provided by a State department of public 
safety, a State justice assistance council, the American Association of 
Retired Persons (AARP) and foundations. Funding amounts from these 
sources ranged from $500 to $10,000 yearly. Sources of additional in-
kind support included an attorney general's office, a college of 
medicine, a county hospital district, a State attorney, providers of 
mental health and medical services, law enforcement, and a medical 
examiner's office.
    Calculating the costs of operating a team was complicated by the 
fact that few teams have dedicated staffing. Staffing tasks are often 
shared by several individuals, are likely to fluctuate over time, and 
may be carried out intermittently and in concert with other tasks. 
Comparing costs was further complicated by the fact that teams engage 
in such diverse activities as community outreach, professional 
training, and research, all of which require very different levels of 
support. In addition, those that rely on in-kind support typically do 
not track costs. Consequently, teams' responses to questions about 
their costs varied widely, with some stating that there were no costs 
associated with the team, with one team indicating that it operates on 
an annual budget of over $85,000. Other MDTs were unable to respond to 
the question.
Sources of Technical Assistance
    Teams receive guidance and technical assistance from a variety of 
sources, the most common of which is State agencies. State units on 
aging, State APS programs, and offices of attorneys general provide 
assistance to approximately one-third (32.3 percent) of the teams 
surveyed. These agencies provide manuals, sample materials, and 
training. Examples include the Illinois Department of Aging, which 
creates resource materials, brochures, posters, and videos. Other 
sources of technical assistance include national organizations (9.7 
percent), such as NCPEA, which operates a program of local affiliates, 
and a statewide coalition of teams.
Challenges
    MDTs have encountered numerous challenges. Respondents were asked 
to provide information about these challenges and to describe the 
initiatives they have taken to address them (Table 6).


<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

    Lack of Participation By Certain Disciplines. Half (48.4 percent) 
of the teams indicated that they experienced difficulty gaining or 
maintaining participation by certain disciplines. Foremost among these 
was law enforcement (42.9 percent). Other underrepresented disciplines 
include medical professionals, clergy, prosecutors, attorneys, 
representatives from financial institutions, providers of services to 
young disabled adults, pharmacists, State long-term care licensing and 
regulatory agencies, county attorney's offices, and mental health 
workers.
    Maintaining an Adequate Number of Cases. Nearly a fourth of teams 
(22.6 percent) indicated that they have trouble finding enough cases to 
present. One reason cited was that APS staff members are too busy to 
prepare case summaries. In addition, many communities now have more 
than one team, which creates ``competition'' for cases. Teams have 
attempted to increase the number and diversity of cases by sending out 
e-mail reminders about meetings and, in communities with more than one 
team, clarifying the types of cases reviewed by each.
    Confidentiality. Although the researchers had anticipated that 
breaches in confidentiality would be a major concern of teams, only 
four respondents (12.9 percent) indicated that this was a challenge for 
them. Respondents were also asked to indicate if they had, in fact, 
experienced breaches. Only one team reported experiencing a ``close 
call.'' This relatively moderate level of concern may reflect teams' 
satisfaction with measures they have taken to preserve confidentiality.
    Measures that MDTs have taken to ensure confidentiality included 
confidentiality agreements, which are employed by well over half (64.5 
percent) of the teams and the use of pseudonyms or initials when 
discussing cases (48.4 percent). Over a third of teams (35.5 percent) 
operate in States that have special laws that permit the sharing of 
information and/or immunity laws, which protect information disclosed 
at meetings from being used as evidence in civil actions or 
disciplinary proceedings. Other methods for ensuring confidentiality 
included written reminders about confidentiality (with applicable State 
code sections) on monthly meeting agendas, outlining confidentiality 
provisions in a memorandum of understanding members sign when they join 
the team, and not disseminating case summaries. One respondent observed 
that as teams gain experience and members get to know each other, 
concerns about confidentiality have decreased.
    Other Challenges. Other challenges cited included the failure of 
certain groups to present cases (16.1 percent), animosity among members 
(9.7 percent), failure of members to follow through on actions to which 
they have agreed (9.7 percent), and members not feeling their time is 
well spent (6.7 percent). Additional challenges cited by single 
respondents included: agency representatives delegated to attend 
meetings do not have the authority needed to make systems changes, and 
those with the authority do not attend, lack of funding and support, 
and failure to achieve ``buy-in'' from members whose participation is 
not voluntary (e.g., they are mandated to participate).
Tangible Products
    In addition to case reviews, teams engage in many other activities, 
the most common being those related to training (58.1 percent). 
Training materials produced by teams include booklets, packets, 
manuals, PowerPoint presentations, and a curriculum and workbook. 
Groups targeted for training include bank employees, clergy, 
gatekeepers, the public, law enforcement, medical students and 
practitioners, and mandated reporters. Training events include 
conferences, workshops and ``train-the-trainer programs.'' Topics 
covered in training sessions include fraud prevention, medical issues, 
APS and its role in receiving reports (including services offered, who 
must report, and what to expect once a case has been assigned to APS 
for investigation and follow-up), how to recognize and investigate 
fiduciary abuse, real estate fraud, and how to gather evidence of 
incapacity for guardianships and lawsuits.
    Approximately one-third of MDTs (32.3 percent) produce other 
materials (not related to training) including brochures, laminated law 
enforcement cards that list elder abuse statutes, resource cards for 
law enforcement, a video on victim impact, a video on FAST, websites, 
annual reports, newsletters, resource guides, public service 
announcements, and handbooks. Replication materials produced by teams 
include videos and how-to manuals.
    Other activities and accomplishments cited by respondents included 
the development of interagency agreements (25.8 percent), legislation 
(19.4 percent), a protocol for law enforcement, and referral guidelines 
for APS workers. One team was developing a volunteer program to recruit 
retired bank personnel to assist in investigating financial abuse 
cases. The program is patterned after a successful model developed in 
Oregon.
                              conclusions
    This study was a first effort to shed light on the role, processes, 
varieties and accomplishments of MDTs on a national level. Although 
limited in sample size (it did not study the hundreds of teams that 
have emerged nationwide in the last 2 decades), it underscores the 
benefits and costs of teams, highlights trends, and provides insight 
into the challenges teams face. Further, it reveals some of the 
difficulties program planners and policy makers address in anticipating 
the direct and indirect costs of operating teams.
    Several findings are noteworthy. Assisting workers resolve 
difficult abuse cases is frequently cited as the primary goal of teams 
and is why some teams were initiated. Although this function was rated 
as the most important performed by teams, the overwhelming majority of 
teams also identify service gaps and update members about new services, 
resources, and legislation. This finding suggests that, although case 
reviews are important in themselves, as previously believed, they 
frequently reveal systemic problems and point to the need for new 
services, resources, legislation, and information about new resources 
and developments.
    Also noteworthy is the importance of legal expertise and input on 
teams. Police and sheriffs, prosecutors and public guardians are among 
the six most commonly included disciplines represented on teams, 
surpassing such groups as medical professionals and domestic violence 
advocates.
    The relatively mild concern for breaches in confidentiality was 
also surprising in light of anecdotal evidence to suggest otherwise 
(i.e., a fatality review team in California refrained from reviewing 
cases until the State passed legislation that permitted the sharing of 
information).
    Reported costs of operating teams varied widely, with some teams 
clearly not knowing their true operational costs, although it was 
obvious that costs were incurred. It may be that teams should examine, 
through systematic outcome evaluation, their true costs and benefits at 
regular intervals to determine whether they meet their operational 
goals or whether such goals can be reasonably achieved.
    In conclusion, MDTs play a key role in communities' response to 
elder abuse and are highly valued by those who participate. Among the 
benefits they cited were strengthening community relationships, 
eliminating or ameliorating turf wars, promoting team work and 
cooperation, providing assistance on cases referred for guardianship, 
helping clients secure improved medical care, and enhancing members' 
understanding of services. Clearly, the strength of MDTs is their 
ability to mobilize professionals from a wide range of disciplines to 
confront the complex and growing problem of elder mistreatment.
                               references
    Manitoba-Seniors-Directorate. (February 1994). Abuse of the 
elderly: a manual for the development of multidisciplinary teams. MDT 
Working Group on Elder Abuse, Winnipeg, Canada.
    Wasylkewycz, M.N. (1993). Elder Abuse Resource Centre, a 
coordinated community response to elder abuse: One Canadian 
perspective. Journal of Elder Abuse and Neglect, 5, 21-33.
    Wolf, R. S. (1988). Elder abuse: Ten years later. Journal of the 
American Geriatrics Society, 36, 758-762.
                      The Elder Justice Coalition
     a national advocacy voice supporting elder justice in america

The Elder Justice Coalition: 192 members

Organizational Members: 147

    National Committee for the Prevention of Elder Abuse
    National Academy of Elder Law Attorneys
    National Association of State Units on Aging
    National Association of APS Administrators
    National Association of State Long-Term Care Ombudsman Programs
    AARP
    Adult Guardianship Services, OH
    Alliance for Quality Nursing Home Care
    American Art Therapy Association
    Alzheimer's Association
    American Association of Homes and Services for the Aging
    American Association for Single People
    American Geriatrics Society
    American Health Care Association
    American Psychological Association
    Americans for Better Care of the Dying
    American Society on Aging
    Area Agency on Aging, Region One, Phoenix, AZ
    Arizona Elder Abuse Coalition
    Arlington AAA, Arlington, VA
    Arlington Steering Committee for Services to Older Persons
    Assisted Living Federation of America
    Association for Protection of the Elderly
    Association for Protection of the Elderly--PA Chapter
    Association for Protection of the Elderly--West Coast Chapter
    Benjamin Rose Institute, Cleveland, OH
    Billings Chapter of NCPEA, Montana
    California Medical Training Center, UC Davis
    Catholic Charities of the Archdiocese of St. Paul & Minneapolis
    Center for Advocacy for the Rights and Interests of the Elderly
    Center for Medicare Advocacy, Inc.
    Citizens for Better Care
    Coalition of Wisconsin Aging Groups & the Elder Law Center
    Cochise County, Arizona, Elder Abuse Task Force
    College of Professional Mediation, Puerto Rico
    Collier County S.A.L.T. (Seniors And Law enforcement Together) 
Council, FL
    Consumer Consortium for Assisted Living
    Council on Aging--Orange County
    District of Columbia Long-Term Care Ombudsman Office
    Disability, Abuse and Personal Rights Project
    Elder Abuse Institute of Maine
    Eldercare America
    Elder Law of Michigan
    Family Research Council
    Foundation for Senior Living
    Georgia Office of the State Long-Term Care Ombudsman
    Gerontological Society of America
    Gray Panthers
    Greater Cleveland Elder Abuse/Domestic Violence Roundtable
    Heart and Hand, Inc.
    Home Instead Senior Care, Inc.
    Hospice Patients Alliance
    Institute for Caregiver Education, Chambersburg PA
    Institute of Gerontology at the University of Louisiana at Monroe
    International Association of Forensic Nurses
    International Cemetery and Funeral Association
    International Longevity Center
    Joint Public Affairs Committee for Older Adults
    Kansas Advocates for Better Care
    Kalamazoo County Advocates for Senior Issues
    Kentucky Cabinet for Families and Children
    Kentucky Office of the State Long-Term Care Ombudsman
    Lawyers for Elder Abuse Prevention, of NY
    Lifecycles, Great Falls, MT
    LIFESPAN, Rochester, NY
    Louisiana Association of Councils on Aging
    Louisiana Geriatrics Society
    Lucas County (Ohio) Prosecutor's Office
    Maine Long-Term Care Ombudsman Program
    Maricopa Elder Abuse Prevention Alliance
    Meals on Wheels Association
    MedAmerica Insurance Company
    Member of the Family
    Metropolitan Crime Commission of Jackson, MS
    Michigan Campaign for Quality Care
    Michigan Office of the State Long Term Care Ombudsman
    National Adult Day Services Association
    National Association of Area Agencies on Aging
    National Association of Counties
    National Association of Directors of Nursing Home Administration in 
Long Term Care
    National Association of Legal Services Developers
    National Association of Local Long Term Care Ombudsmen
    National Association of Nutrition and Aging Service Programs
    National Association of Orthopedic Nurses
    National Association of Social Workers
    National Clearinghouse on Abuse in Later Life
    National Caucus and Center on Black Aged, Inc.
    National Citizens' Coalition for Nursing Home Reform
    National Committee to Preserve Social Security and Medicare
    National Council on Aging
    National Council on Child Abuse & Family Violence
    National Education Association--Retired
    National Hispanic Council on Aging
    National Indian Council on Aging
    National Senior Citizens Law Center
    National Silver Haired Congress
    Nevada County (California) Department of Adult & Family Services
    New Hampshire Long-Term Care Ombudsman Program
    New Mexico State Agency on Aging
    New York Citizens' Committee on Aging
    New York Foundation for Senior Citizens Guardian Services
    New York State Society on Aging
    Northeastern Illinois Area Agency on Aging
    Northern Area Agency of Aging, WI
    Northern Virginia Long-Term Care Ombudsman Programs
    Nursing Home Monitors
    Office of Ombudsman for Older Minnesotans
    Ohio Association of Probate Judges
    Ohio Association of Regional Long-Term Care Ombudsman
    Ohio Coalition for Adult Protective Services
    Older and Disabled Adult Services/Solano County Health and Social 
Services
    Orange County Vulnerable Adult Specialist Team, Orange County, CA
    Pinal County Attorney's Office, AZ
    Pinal County Public Fiduciary, AZ
    Pinal-Gila Elder Abuse Specialist Team, AZ
    Rhode Island Office of the State Long-Term Care Ombudsman
    Riverside County Office on Aging
    San Diego Elder Abuse Task Force
    San Francisco Department of Aging and Adult Services
    San Francisco Department of Human Services
    Senior & Adult Services of Cuyahoga County, OH
    Senior Citizens, Inc., TN
    Senior Protective Ministry
    SOLACE
    Stanislaus Elder Abuse Prevention Alliance
    Stop Family Violence
    Suburban Area Agency on Aging
    Texas Elder Abuse and Mistreatment Institute
    Texas Office of the State Long Term Care Ombudsman
    The Burden Center for the Aging, NY
    The Center for Social Gerontology, Inc.
    The Long Term Ombudsman Council of Broward County, FL
    TRIAD
    United Jewish Appeal Federation of New York
    United Jewish Communities
    Virginia Elder Rights Coalition
    Virginia Office of the State Long-Term Care Ombudsman
    Walk the Walk, NY
    Washington County, Oregon Elder Abuse MDT
    Wellspring Personal Care
    Western Montana Chapter for the Prevention of Elder Abuse
    Western Reserve Area Agency on Aging, OH
    Wisconsin Association of Area Agencies on Aging
    Wisconsin Board on Aging and Long Term Care
    WordBridges
    Wyoming Dept of Health/Aging Division

Individual Members: 45

    Georgia Anetzberger
    Ben Antinori
    Susan Aziz
    Nora J. Baladerian, Ph.D.
    Bennett Blum, MD
    Patricia Bomba, MD
    Dr. Patricia Brownell
    Bobbi Butler
    Curtis B. Clark, MD
    Dr. Lawrence Cranberg
    Judith Dorsett
    Iris Freeman
    Jonathan Heller
    Gema Hernandez
    Alison Hirschel
    Ann Howard
    Mary Charlene Johns
    Tom Laughlin
    Dr. Tomas Larrieux
    Elizabeth Loewy
    Margaret S. McCarthy
    Ailee Moon, Ph.D.
    Cal Morken
    Scott Morken
    Laura Mosqueda, MD
    Lisabeth Passalis-Bain
    Brian K. Payne, Ph.D.
    Mebane Powell
    Ron Proudfoot
    Mary Joy Quinn
    Sandy Reynolds
    Esther L. Aguila Rivera
    Daniel J. Sheridan, Ph.D., RN
    Jean Sherman, Ed.D.RN
    Susan Somers
    Joseph Soos
    Gail Spessert
    Lori Stiegel
    Sandra Sullivan
    Erika Taylor
    Natalie Thomas
    Randolph W. Thomas
    Marie Tomlin
    Andre Waguespack
    Linda L. Watts



    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    

    [Whereupon, at 11:41 a.m., the subcommittee was adjourned.]

                                    

      

</pre><script data-cfasync="false" src="/cdn-cgi/scripts/5c5dd728/cloudflare-static/email-decode.min.js"></script></body></html>
